       Evaluation Report




EVALUATION REPORT
INFORMATION TECHNOLOGY: The Department of the Treasury
Federal Information Security Management Act Fiscal Year 2009
Evaluation (OIG-CA-10-003)

November 13, 2009


Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220

                                                    November 13, 2009
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR DANIEL TANGHERLINI
                           ASSISTANT SECRETARY OF THE TREASURY FOR
                             MANAGEMENT, CHIEF FINANCIAL OFFICER, AND CHIEF
                             PERFORMANCE OFFICER

                                       MICHAEL DUFFY
                                       DEPUTY ASSISTANT SECRETARY OF INFORMATION
                                         SYSTEMS AND CHIEF INFORMATION OFFICER

            FROM:                      Marla A. Freedman /s/
                                       Assistant Inspector General for Audit

            SUBJECT:                   The Department of the Treasury Federal Information Security
                                       Management Act Fiscal Year 2009 Evaluation

            I am pleased to transmit the following reports:

                •   Federal Information Security Management Act Fiscal Year 2009 Evaluation–
                    November 13, 2009
                •   Treasury Inspector General for Tax Administration (TIGTA)–Federal Information
                    Security Management Act Report for Fiscal Year 2009, Audit #200920010,
                    October 27, 2009

            The Federal Information Security Management Act (FISMA) of 2002 requires an annual
            independent evaluation of the Department of the Treasury’s information security
            program and practices. To meet FISMA requirements, we contracted with KPMG LLP,
            an independent public accounting firm, to perform the FISMA evaluation of Treasury’s
            Non-Internal Revenue Service (IRS) unclassified systems. Attachment 1 contains the
            KPMG report and our Office of Management and Budget (OMB) submission, which
            incorporates the responses of TIGTA as well. Attachment 2 contains TIGTA’s
            evaluation of FISMA compliance for Treasury’s IRS systems. 1


            1
              We did not review the work performed by TIGTA to evaluate the information security program and
            practices of IRS. Our overall conclusions, insofar as they relate to IRS, are based solely on TIGTA’s
            report (attachment 2). We did, however, coordinate with TIGTA on the scope and methodology,
            including sample selection, of our respective engagements.
Page 2



Based on the results reported by KPMG and TIGTA, we determined that Treasury’s
information security program is in place and is generally consistent with FISMA.
However, the KPMG evaluation of Treasury’s non-IRS unclassified systems indicated
that additional steps are required to ensure that Treasury’s information security risk
management program and practices fully comply with applicable National Institute of
Standards and Technology (NIST) standards and guidelines and FISMA requirements.
Specifically, KPMG reported that:

      1. NIST Federal Information Processing Standard 200 minimum security control
         baselines were not sufficiently tested or implemented (repeat finding)
      2. Breach notification policy required by OMB Memorandum 07-16 has not been
         finalized and issued (repeat finding)
      3. The Departmental Offices Federal Desktop Core Configuration image is not fully
         implemented (repeat finding)
      4. The Bureau of Public Debt (BPD) is not using a Security Content Automation
         Protocol validated tool
      5. Financial Management Service (FMS) Plan of Action and Milestone estimate to
         completion dates and milestones were not consistently updated in accordance
         with FMS policy
      6. Frequency of vulnerability assessment scanning at BPD is not in line with bureau
         and Treasury policy
      7. E-authentication risk assessment was not performed at the Financial Crimes
         Enforcement Network.

TIGTA reported that IRS had made steady progress in complying with FISMA
requirements. TIGTA also found significant improvements in IRS information
technology contingency plan testing and additional improvements in annual security
controls testing, which were identified as areas needing improvement in its 2008
FISMA evaluation. TIGTA noted that IRS still needs to take action in the areas of
certification and accreditation, and configuration management.

If you have any questions or require further information, you may contact me at (202)
927-5400 or Joel A. Grover, Deputy Assistant Inspector General for Financial
Management and Information Technology Audits, at (202) 927-5768. For questions
pertaining to the TIGTA FISMA evaluation, please contact Michael R. Phillips, Deputy
Inspector General for Audit, at (202) 622-6510.


Attachments

cc:      Edward A. Roback, Associate Chief Information Officer, Cyber Security
            ATTACHMENT 1

       The Department of the Treasury
Federal Information Security Management Act
         Fiscal Year 2009 Evaluation,
             November 13, 2009
      The Department of the Treasury
Federal Information Security Management Act
         Fiscal Year 2009 Evaluation


              November 13, 2009
                      The Department of the Treasury
  Federal Information Security Management Act Fiscal Year 2009 Evaluation

                                                               Table of Contents

FISMA Evaluation Report
Executive Summary ...................................................................................................................................... 1
Background ................................................................................................................................................... 4
Objective, Scope, and Methodology ............................................................................................................. 8
Results ......................................................................................................................................................... 12
Conclusions ................................................................................................................................................. 19
Management Response to Draft Report ...................................................................................................... 20

Appendices
Appendix I – Response to the FY 2009 OMB FISMA Reporting Questions ............................................ I-1
Appendix II – Approach to the Selection of the Subset of Systems ......................................................... II-1
Appendix III – Acronym Listing ............................................................................................................. III-1
Executive Summary

This report presents the results of the evaluation conducted to address the objectives relative to the Fiscal
Year (FY) 2009 Federal Information Security Management Act of 2002 (FISMA) of the 12 non-Internal
Revenue Service (IRS) bureaus and offices 1 of the United States Department of the Treasury (Treasury).
The IRS was not included within the scope of this FISMA evaluation. The Treasury Inspector General for
Tax Administration (TIGTA) performed the FISMA evaluation of the IRS. As part of this FISMA
evaluation, we only incorporated the results of the TIGTA FISMA evaluation of the IRS into the Office of
Management and Budget (OMB) FY 2009 FISMA Reporting Template (see Appendix I).

This evaluation was conducted in accordance with the Council of Inspectors General on Integrity and
Efficiency – Quality Standards for Inspections and the General Standards contained within the Generally
Accepted Government Auditing Standards (GAGAS), issued by the Comptroller General of the United
States.

The objectives of this evaluation were to determine, as of June 30, 2009, whether non-IRS Treasury
bureaus had implemented:

•   An information security program, consisting of plans, policies, procedures, and security controls,
    consistent with FISMA 2
•   The security control catalog contained in the National Institute of Standards and Technology (NIST)
    Special Publication (SP) 800-53 Revision 2 (Rev. 2), Recommended Security Controls for Federal
    Information Systems. 3

Our evaluation was performed during the period of March 23, 2009 through October 7, 2009.

To accomplish our objectives, we evaluated controls in accordance to applicable legislation, Presidential
directives, OMB policy, and NIST standards and guidelines. We reviewed the Treasury information
security program from both a Department-level perspective for Treasury-wide program level controls and
Bureau-level implementation perspective, including an in-depth assessment of the implementation of
selected security control catalog outlined in NIST SP 800-53 Rev. 2. We utilized the assessment guidance
in NIST SP 800-53A as our security control assessment methodology. We considered each objective
above to reach conclusions with regard to the Treasury’s information security program and practices.

During the FY 2009 FISMA Evaluation, we noted that the 12 non-IRS Treasury bureaus and offices have
made progress in improving information security controls and practices. 4 Following our FY 2008 FISMA

1
  The Treasury is comprised of 14 bureaus and offices. The scope of this evaluation excluded the IRS.
Additionally, while the Special Inspector General for the Troubled Asset Relief Program (SIGTARP) is
one (1) of the 14 Treasury bureaus and offices and is considered a non-IRS office for purposes of this
report; information technology assets and responsibilities are managed by the Treasury Departmental
Offices. Thus, the SIGTARP is considered a component of the Treasury Departmental Offices for
FISMA reporting purposes. The 14 bureaus and offices of the Treasury are described on page 5 of this
report.
2
  This objective includes the completion of the OMB FY 2009 FISMA Reporting Template for IGs, which
is presented in Appendix I of this report.
3
  The conclusion for this objective is based on (five) 5 of the 18 systems selected in the representative
subset of Treasury systems with a NIST Federal Information Processing Standard (FIPS) 199 system
impact level of Moderate.
4
  The FISMA evaluation of the IRS is performed by TIGTA.

                                                                                                      Page 1
audit 5 , Treasury has continued to strengthen its inventory reporting processes by more effectively using
the Trusted Agent FISMA (TAF) system 6 to serve as the consolidated FISMA inventory system of record
for the Treasury. In addition, Treasury has implemented a training tool to facilitate the uniform delivery
of security awareness training and specialized security training. As of the close of fieldwork, 11 of the 12
non-IRS bureaus and offices were using this tool 7 . This tool also has mechanisms to allow bureau-level
Chief Information Officer (CIO) and Treasury Office of the Chief Information Officer (OCIO) Cyber
Security Program personnel to track compliance with Information Technology (IT) training requirements.
Lastly, Treasury continues to implement NIST SP 800-70 compliant secure configurations baselines
across all non-Federal Desktop Core Configuration (FDCC) platforms.

In addition, we noted that eight (8) of the 11 findings reported during the FY 2008 FISMA Performance
Audit have been resolved and one (1) finding was partially closed.

However, we also noted areas needing improvement where Treasury should take additional steps to
ensure that its information security risk management program and practices fully comply with applicable
NIST standards and guidelines and FISMA requirements. Specifically,

1. NIST Federal Information Processing Standard (FIPS) 200 Minimum Security Control
   Baselines Were Not Sufficiently Tested or Implemented (Repeat Finding). Treasury has
   continued to make progress in addressing information security risk management requirements of
   FISMA and NIST, including the certification and accreditation of information systems and the
   implementation of minimum security controls outlined in NIST FIPS 200 Minimum Security
   Requirements for Federal Information and Information Systems and NIST SP 800-53 Rev. 2. The
   OCIO Cyber Security Program has built a program to oversee the certification and accreditation
   efforts of all Treasury bureaus. In addition, the majority of bureaus evaluated have made progress in
   implementing the NIST SP 800-53 Rev. 2 minimum security control baseline within systems under
   their control. However, we noted that the minimum security controls required by NIST FIPS 200
   were not tested or fully implemented for three (3) systems within our representative subset of non-
   IRS Treasury information systems and one (1) system previously identified during the FY 2008
   FISMA Audit. Specifically, during the FY 2008 audit we noted that the Bureau of Engraving and
   Printing (BEP), the Office of Thrift Supervision (OTS), and the Alcohol and Tobacco Tax and Trade
   Bureau (TTB) had not sufficiently tested or implemented the NIST SP 800-53 Rev. 2 security control
   baseline for systems under their control. At the conclusion of the FY 2009 FISMA Evaluation, the
   systems under the control of OTS within our scope did not have a sufficiently implemented or tested
   security control baseline. We also noted that FMS has not sufficiently tested the NIST SP 800-53
   Rev. 2 security control baseline for two (2) systems under their control.

2. Breach Notification Policy Required by OMB Memorandum 07-16 has not been Finalized and
   Issued (Repeat Finding). OMB Memorandum 07-16, Safeguarding Against and Responding to the
   Breach of Personally Identifiable Information, issued on May 22, 2007, required that policy be
   developed for the Personally Identifiable Information (PII) breach notifications. OMB Memorandum
   07-16 required that this policy be issued within 120 days after the date of the memorandum,


5
  In FY 2008 the engagement was conducted as a performance audit and the FY 2009 engagement was
performed in accordance with the Council of Inspectors General on Integrity and Efficiency – Quality
Standards for Inspections.
6
  TAF is an enterprise tool for aggregating data reported by Treasury bureaus to gauge how well the
Department is complying with key information security practices and controls.
7
  Only the Office of the Comptroller of Currency (OCC) was not using the Treasury training tool.

                                                                                                     Page 2
    September 22, 2007. To date, Treasury Directive (TD) 25-08, Safeguarding Against and Responding
    to the Breach of Personally Identifiable Information, has not been finalized and issued.

3. The Departmental Offices (DO) FDCC Image is Not Fully Implemented (Repeat Finding). At
   the conclusion of the FY 2008 FISMA Audit, we noted that four (4) of the 12 non-IRS Treasury
   bureaus and offices, DO, the Financial Crimes Enforcement Network (FinCEN), the OIG, and OTS,
   had not fully implemented their FDCC baselines. As of the conclusion of the FY 2009 FISMA
   Evaluation, we noted that only DO still had not implemented the FDCC secure configuration baseline
   on all workstations in accordance with Treasury Chief information Officer Memorandum 07-14,
   Implementation of Commonly Accepted Security Configurations for Windows Operating Systems, and
   OMB Memorandum 07-11, Implementation of Common Security Configurations for IT Systems Using
   Windows XP or Vista.

4. The Bureau of Public Debt (BPD) is Not Using a Security Content Automation Protocol (SCAP)
   Validated Tool. As of the conclusion of the FY 2009 FISMA reporting period, BPD was not using a
   SCAP validated tool to scan the BPD FDCC secure configuration baseline in accordance with OMB
   Memorandum 08-22, Guidance on the Federal Desktop Core Configuration.

5. FMS Plan of Action and Milestone (POA&M) Estimate to Completion Dates and Milestones
   Were Not Consistently Updated in Accordance with FMS Policy. Discrepancies were identified
   in the management of the POA&M weaknesses for three (3) of five (5) systems selected at FMS.
   Specifically, 11 out of 15 weaknesses sampled across these systems had open weaknesses listed with
   a status of delayed and were past estimated completion dates.

6. Frequency of Vulnerability Assessment Scanning at BPD is not In Line with Bureau and
   Treasury Policy. The frequency of vulnerability scanning over a system selected at BPD is not in
   compliance with Treasury-wide and BPD policy and the control requirements outlined in the system’s
   security plan. Currently, this system is scanned for vulnerabilities annually, while the minimum
   required frequency of vulnerability scanning specified by Treasury policy and the control
   requirements outlined in the system’s security plan is at least quarterly, while BPD bureau-wide IT
   policy is semiannually.

7. E-Authentication Risk Assessment Was Not Performed at the Financial Crimes Enforcement
   Network (FinCEN). Treasury has established policies requiring an E-Authentication Risk
   Assessment for information systems with Web-based identification and authentication mechanisms.
   We identified one (1) system within our representative subset of non-IRS Treasury systems at
   FinCEN as having a Web-based identification and authentication mechanism; however, an E-
   Authentication Risk Assessment was not performed.

Overall, while continued improvements are still needed across five (5) of 12 non-IRS bureaus and offices,
we determined that an information security program is in place and is generally consistent with FISMA.
All of our findings are included in the results section of this report, which warrants management attention
and corrective actions. Management concurs with all reported findings and recommendations. The
OCIO’s written response to our draft report, dated November 2, 2009, is included within this report.




                                                                                                    Page 3
Background

On December 17, 2002, the President signed into law H.R. 2458, the E-Government Act of 2002 (Public
Law 107-347). Title III of the E-Government Act of 2002, commonly referred to as FISMA, focuses on
improving oversight of federal information security programs and facilitating progress in correcting
agency information security weaknesses. FISMA requires federal agencies to develop, document, and
implement an agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source. FISMA assigns specific responsibilities to
agency heads and Inspectors Generals (IG) and is supported by security policy promulgated through
OMB and risk-based standards and guidelines published by NIST.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. FISMA
directs federal agencies to report annually to the OMB Director, Comptroller General, and selected
Congressional committees on the adequacy and effectiveness of agency information security policies,
procedures, and practices and compliance with FISMA. In addition, FISMA requires agencies to have an
annual independent evaluation performed of their information security programs and practices and to
report the evaluation results to OMB. FISMA states that the independent evaluation is to be performed by
the agency IG or an independent external auditor as determined by the IG.

In support of agency responsibilities, OMB regularly issues policies through annual reporting instructions
and other guidelines for agencies to follow in meeting FISMA annual reporting requirements.
Additionally, in response to the FISMA mandate and OMB policy, NIST developed standards and
guidelines as part of a comprehensive risk management framework to assist agencies in establishing an
information security management program. This risk management framework is designed to help
agencies categorize information and systems, define minimum-security baselines, test security controls,
authorize systems into production, and perform monitoring activities. This includes the NIST FIPS 199,
Standards for Security Categorization of Federal Information and Information Systems, issued in
February 2004, as the first of two (2) mandatory security standards required by FISMA. NIST FIPS 199
establishes security categories for federal agencies to use in categorizing information and information
systems based on the potential impact associated with the loss of confidentiality, integrity, or availability
on an agency mission or individual.

NIST FIPS 200, Minimum Security Requirements for Federal Information and Information Systems, is the
second of the mandatory security standards developed in response to FISMA and provides direction to
agencies in determining the minimum “foundational” level of security controls to select for protecting the
confidentiality, integrity, and availability of information and systems. Specifically, NIST FIPS 200 states
that selected set of security controls must include one (1) of three (3) appropriately tailored security
control baselines from NIST SP 800-53 Rev. 2, which are associated with the designated impact levels of
the organizational information systems as determined during the security categorization process. NIST SP
800-53 Rev. 2 features 17 control families organized into management, operational, and technical control
areas for protecting federal information and information systems. In accordance with security
requirements in NIST FIPS 200, organizations must employ all security controls in the respective security
control baselines unless specific exceptions are allowed based on the tailoring guidance provided in NIST
SP 800-53 Rev. 2. This includes (i) selecting an initial set of baseline security controls based on a NIST
FIPS 199 worst-case, impact analysis; (ii) tailoring the baseline security controls; and (iii) supplementing
the security controls, as necessary, based on an organizational assessment of risk. As a companion to

                                                                                                      Page 4
NIST SP 800-53 Rev. 2, NIST in July 2008 released SP 800-53A, Guide for Assessing the Security
Controls in Federal Information Systems, which covers both the security control assessment and
continuous monitoring steps in the Risk Management Framework and provides guidance on the security
assessment process.

Treasury Bureaus and Offices

Treasury is comprised of 14 operating bureaus and offices, including:

•   Alcohol and Tobacco Tax and Trade Bureau (TTB) – Responsible for enforcing and administering
    laws covering the production, use, and distribution of alcohol and tobacco products. TTB also collects
    excise taxes for firearms and ammunition.
•   Bureau of Engraving and Printing (BEP) – Designs and manufactures U.S. (paper) currency,
    securities, and other official certificates and awards.
•   Bureau of the Public Debt (BPD) – Borrows the money needed to operate the federal government. It
    administers the public debt by issuing and servicing U.S. Treasury marketable, savings, and special
    securities.
•   Community Development Financial Institution (CDFI) Fund – Created to expand the availability
    of credit, investment capital, and financial services in distressed urban and rural communities.
•   Departmental Offices (DO) – Primarily responsible for policy formulation. The DO is composed of
    divisions headed by Assistant Secretaries, some of whom report to Under Secretaries.
•   Financial Crimes Enforcement Network (FinCEN) – Supports law enforcement investigative
    efforts and fosters interagency and global cooperation against domestic and international financial
    crimes. It also provides U.S. policy makers with strategic analyses of domestic and worldwide trends
    and patterns.
•   Financial Management Service (FMS) – Receives and disburses all public monies, maintains
    government accounts, and prepares daily and monthly reports on the status of government finances.
•   Internal Revenue Service (IRS) – Responsible for determining, assessing, and collecting internal
    revenue in the United States.
•   Office of the Comptroller of the Currency (OCC) – Charters, regulates, and supervises national
    banks to ensure a safe, sound, and competitive banking system that supports the citizens,
    communities, and economy of the United States.
•   Office of the Inspector General (OIG) – Conducts and supervises audits and investigations of
    Treasury programs and operations. The OIG also keeps the Secretary and the Congress fully and
    currently informed about problems, abuses, and deficiencies in Treasury programs and operations.
•   Office of Thrift Supervision (OTS) – The primary regulator of all Federal and many state-chartered
    thrift institutions, which include savings banks and savings and loan associations.
•   United States Mint (Mint) – Designs and manufactures domestic, bullion, and foreign coins as well
    as commemorative medals and other numismatic items. The Mint also distributes U.S. coins to the
    Federal Reserve banks as well as maintains physical custody and protection of our nation’s silver and
    gold assets.
•   Special Inspector General for the Troubled Asset Relief Program (SIGTARP) – Has the
    responsibility to conduct, supervise and coordinate audits and investigations of the purchase,
    management and sale of assets under the Troubled Asset Relief Program. SIGTARP's goal is to
    promote economic stability by assiduously protecting the interests of those who fund the TARP
    programs - i.e., the American taxpayers.
•   Treasury Inspector General for Tax Administration (TIGTA) – Conducts and supervises audits
    and investigations of IRS programs and operations. The TIGTA also keeps the Secretary and the


                                                                                                   Page 5
   Congress fully and currently informed about problems, abuses, and deficiencies in IRS programs and
   operations.


Treasury Information Security Management and Program

     Treasury OCIO

     The Treasury CIO is responsible for providing Treasury-wide leadership and direction for all areas
     of information and technology management, as well as the oversight of a number of IT programs.
     Among these programs is Cyber Security, which has responsibility for the implementation and
     management of Treasury-wide IT security programs and practices. Through its mission, the
     Treasury OCIO Cyber Security Program develops and implements IT security policies and provides
     policy compliance oversight for both unclassified and classified systems managed by each of
     Treasury’s bureaus. The OCIO Cyber Security Program’s mission focuses on the following areas:

     •   Cyber Security Policy and Program Performance
     •   Cyber Security FISMA Performance and Technical Review
     •   Vulnerability Analysis
     •   Configuration and Planning
     •   Cyber Critical Infrastructure Protection (CIP)
     •   Treasury Computer Security Incident Response Capability (TCSIRC)
     •   Cyber Security Sub-Council (CSS) of the Treasury CIO Council.

     The Treasury CIO has tasked the Associate CIO for Cyber Security (ACIOCS) with the
     responsibility of managing and directing the OCIO’s Cyber Security program, as well as ensuring
     compliance with statutes, regulations, policies, and guidance. The ACIOCS and the Cyber Security
     program have established Treasury Directive Publication (TD P) 85-01, Treasury Information
     Technology Security Program, as the Treasury-wide IT security policy to provide for information
     security for all information and information systems that support the mission of the Treasury,
     including those operated by another federal agency or contractor on behalf of Treasury. In addition,
     as OMB periodically releases updates/clarifications of FISMA or as NIST releases updates to
     publications, the ACIOCS and the Cyber Security program have responsibility to interpret and
     release updated policy for Treasury. The ACIOCS and the Cyber Security program are also
     responsible for promoting and coordinating a Treasury-wide IT security program, as well as
     monitoring and evaluating the status of Treasury’s IT security posture and compliance with statutes,
     regulations, policies, and guidance. Lastly, the ACIOCS has the responsibility of managing
     Treasury’s IT CIP program for Treasury information technology assets.

     Bureau OCIO

     Bureau OCIO organizations are managed by a bureau CIO. The bureau CIOs first have the
     responsibility of managing the IT security program for the bureau, as well as advising the bureau
     head on significant issues related to the bureau IT security program. Bureau CIOs also have the
     responsibility for overseeing the development of procedures that comply with Treasury OCIO
     policy and guidance and federal statutes, regulations, policy, and guidance. The bureau Chief
     Information Security Officers are tasked by the bureau CIOs to serve as the central point of contact
     for the bureau’s IT security program, as well as to develop and oversee the bureau’s IT security



                                                                                                  Page 6
      program. This includes the development of policies, procedures, and guidance required to
      implement and monitor the bureau IT security program.

      Treasury – Bureau OCIO Collaboration

      The Treasury OCIO has established the Treasury CIO CSS, which is chaired by the ACIOCS. The
      CSS serves as a mechanism for obtaining bureau-level input and advises on new policies, Treasury-
      wide IT security activities, and performance measures. The CSS also provides a means for IT
      security-related information sharing among bureaus. Included on the CSS are representatives from
      the OCIO, bureau CIO organizations, as well as the OIG – Office of IT Audits and TIGTA – Office
      of Audits.

Treasury Privacy and Data Protection Program

Treasury established a department-wide privacy program to protect the PII it manages from unauthorized
use, access, disclosure, or sharing and to safeguard associated information systems from unauthorized
access, modification, disruption, or destruction. Key components of the Treasury’s privacy program
include, but are not limited to:

• The role of Chief Privacy Officer (CPO) and Senior Agency Official for Privacy is held by the
  Assistant Secretary for Management/Chief Financial Officer.

•   The Office of Privacy and Treasury Records (OPTR) was established on March 24, 2008 as the
    program management office that supports the Treasury CPO in developing and implementing privacy
    requirements including policies and procedures for managing and protecting PII. OPTR also provides
    privacy and data protection programs oversight of all Treasury bureaus and offices in carrying out
    directives and policies developed by OPTR. Additionally, OPTR is responsible for establishing a
    privacy awareness program disseminated to bureaus regarding Treasury employee privacy
    responsibilities. OPTR includes the Office of Privacy and Civil Liberties, Office of Disclosure
    Services, Treasury Records, Treasury Library, and the Orders and Directives Program.

•   Each of the 14 Treasury bureaus and offices has also established a bureau privacy officer. The role of
    the bureau privacy officer is to act as a liaison between the bureau’s system owners and the OPTR and
    the CPO to ensure that privacy and data protection programs are operating effectively at the bureau
    level. This includes performance of Privacy Threshold Analysis and Privacy Impact Assessments
    (PIA) on all information systems. Bureau privacy officers work with the system owners to analyze the
    data being processed in the system and make a determination if the data contains PII.




                                                                                                   Page 7
Objective, Scope, and Methodology

The objectives of our evaluation were to determine, as of June 30, 2009, whether non-IRS Treasury
bureaus had implemented:

•   An information security program, consisting of plans, policies, procedures, and security controls
    consistent with FISMA 8
•   The security controls catalog contained in the NIST SP 800-53 Rev. 2. 9

To accomplish our objectives, we evaluated controls in accordance with applicable legislation,
Presidential directives, OMB policy, and NIST standards and guidelines. We reviewed the Treasury
information security program from both the Department-level perspective for Treasury-wide program
level controls and Bureau-level implementation perspective, including NIST SP 800-53 Rev. 2 minimum
security control baselines established by NIST FIPS 200. We considered each area above to reach
conclusions with regard to Treasury’s information security program and practices.

Department Level

To gain an overall enterprise-level understanding, we assessed management, policies, and guidance for
the overall Treasury-wide information security program per requirements defined in FISMA and
OMB/NIST standards, as well as guidelines developed in response to FISMA. This included program
controls applicable to information security governance, security and contingency planning, certification
and accreditation, incident response, configuration management, and security awareness and training.

Bureau Level

As required by FISMA, we also performed tests for a representative subset of 18 information systems out
of a total population of 121 non-IRS major applications and general support systems as of April 2, 2009
to determine whether bureaus were effective in implementing Treasury’s security program in meeting
minimum security standards to protect information and information systems (see Appendix II detailing
our system selection approach). The subset of systems encompassed systems managed and operated by 12
of 14 Treasury bureaus and offices, excluding the IRS.

A key component of assessing controls for the representative subset of systems was to assess
implementation of minimum security control requirements per guidance provided from the NIST SP 800-
53 Rev. 2 for a selection of security controls across five (5) of the 18 systems within the representative
subset of non-IRS Treasury information systems selected for FISMA reporting. As shown in Table 1,
NIST SP 800-53 Rev. 2 features 17 control families that are organized into management, operational, and
technical control areas for protecting federal information and information systems.




8
  This objective includes the completion of the OMB FY 2009 FISMA Reporting Template for IGs,
which is presented in Appendix I of this report.
9
  The conclusion for this objective is based on (five) 5 of the 18 systems selected in the representative
subset of Treasury systems with a NIST FIPS 199 system impact level of Moderate.

                                                                                                   Page 8
                          Table 1: Security Control Classes and Families 10
               Security Control Class                Security Control Family
                                       Risk Assessment
                                       Planning
              Management               System and Services Acquisition
                                       Certification, Accreditation, and Security
                                       Assessments
                                       Personnel Security
                                       Physical and Environmental Protection
                                       Contingency Planning
                                       Configuration Management
              Operational              Maintenance
                                       System and Information Integrity
                                       Media Protection
                                       Incident Response
                                       Awareness and Training
                                       Identification and Authentication
                                       Access Control
              Technical
                                       Audit and Accountability
                                       System and Communications Protection

Our criteria for selecting controls within each system to review were based on the following:

•     Highly volatile controls that have the potential to affect a significant number of information systems,
      such as common controls or those critical to a specific system which are likely to change over time.
•     Specific high-risk controls that are crucial to the protection of a system were considered for selection
      as part of the testing requirement. These are not necessarily the same as highly volatile controls and
      may or may not be POA&M items.
•     Testing of a system’s security-relevant changes that occur out of the certification and accreditation
      cycle but do not necessarily constitute a major change necessitating a new certification and
      accreditation.

Our methodology for the assessment of the selected controls was based on the recommended guidance in
NIST SP 800-53A.

Other Considerations

In performing our control evaluations, we interviewed key Treasury OCIO personnel who had significant
information security responsibilities as well as personnel across the 12 non-IRS bureaus and offices. We
also evaluated Treasury and bureaus’ policies, procedures, and guidelines. Lastly, we evaluated selected
security-related documents and files, including certification and accreditation packages, configuration
assessment results, IT service contracts, training records, and strategic and annual performance plans.




10
     Source: NIST SP 800-53 Rev. 2

                                                                                                       Page 9
We performed our evaluation at Treasury’s headquarters offices in Washington, D.C., and bureau
locations in Washington, D.C.; Hyattsville, Maryland; McLean, Virginia; Parkersburg, West Virginia;
and Richmond, Virginia during the period of March 23, 2009 through November 2, 2009. During our
evaluation, we met with Treasury management to discuss our preliminary conclusions. This evaluation
was conducted in accordance with the Council of Inspectors General on Integrity and Efficiency – Quality
Standards for Inspections and the General Standards contained within GAGAS, issued by the Comptroller
General of the United States.

Applicable Criteria

Our approach to this FISMA evaluation is based on federal information security criteria developed by
NIST and OMB. NIST SPs provide guidelines that are considered essential to the development and
implementation of agencies’ security programs. 11 The following is a listing of the criteria used in the
performance of the FY 2009 FISMA Evaluation:

•    OMB Circular A-130, Management of Federal Information Resources
•    NIST FIPS 199, Standards for Security Categorization of Federal Information and Information
     Systems
•    NIST FIPS 200, Minimum Security Requirements for Federal Information and Information Systems
•    NIST SP:
     o 800-16, Information Technology Security Training Requirements: A Role- and Performance-
         Based Model
     o 800-18 Rev. 1, Guide for Developing Security Plans for Information. Technology System
     o 800-30, Risk Management Guide for Information Technology Systems
     o 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems
     o 800-39, Managing Risk from Information Systems: An Organizational Perspective
     o 800-34, Contingency Planning Guide for Information Technology Systems
     o 800-53 Rev. 2, Recommended Security Controls for Federal Information Systems
     o 800-53A, Guide for Assessing the Security Controls in Federal Information Systems
     o 800-60, Guide for Mapping Types of Information and Information Systems to Security Categories
     o 800-61, Computer Security Incident Handling Guide
     o 800-70, Security Configuration Checklists Program for IT Products: Guidance for Checklists
         Users and Developers
•    OMB Memoranda
      o 04-04, E-Authentication Guidance for Federal Agencies
      o 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
      o 07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating
          Systems
      o 07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
          Information
      o 07-18, Ensuring New Acquisitions Include Common Security Configurations

11
   Note (per OMB instructions): While agencies are required to follow NIST standards and guidance in
accordance with OMB policy, there is flexibility within NIST’s guidance documents (specifically in the
800 series) in how agencies apply the guidance. However, NIST FIPS are mandatory. Unless specified by
additional implementing policy by OMB, guidance documents published by NIST generally allow
agencies latitude in their application. Consequently, the application of NIST guidance by agencies can
result in different security solutions that are equally acceptable and compliant with the guidance.



                                                                                                Page 10
o   08-22, Guidance on the Federal Desktop Core Configuration (FDCC)
o   09-29, FY 2009 Reporting Instructions for the Federal Information Security Management Act
    and Agency Privacy Management




                                                                                     Page 11
Results

During our FY 2009 FISMA evaluation, we noted that the 12 non-IRS Treasury bureaus and offices
continue to make progress in improving information security controls and practices. 12 Following our FY
2008 FISMA Audit, Treasury has continued to strengthen its inventory reporting processes by more
effectively using the TAF system to serve as the consolidated FISMA inventory system of record for the
Treasury. 13 In addition, Treasury has implemented a Treasury-wide training tool to facilitate the uniform
delivery of security awareness training and specialized security training. As of the close of fieldwork, 11
of the 12 non-IRS bureaus and offices were using this tool 14 . This tool also has mechanisms to allow
bureau-level CIOs and Treasury OCIO Cyber Security Program personnel to track compliance with IT
training requirements. Lastly, Treasury continues to implement NIST SP 800-70 compliant secure
configurations baselines across all non-FDCC platforms. However, based on our FY 2009 FISMA
evaluation, we noted seven (7) areas needing improvement. These areas are:

1. NIST FIPS 200 minimum security control baselines not sufficiently tested or implemented.
2. Breach notification policy required by OMB Memorandum 07-16 has not been not finalized and
   issued.
3. DO FDCC image not fully implemented.
4. BPD is not using a security content automation protocol validated tool.
5. FMS POA&M estimate to completion dates and milestones were not consistently updated in
   accordance with FMS policy.
6. Frequency of Vulnerability Assessment Scanning at BPD is not In Line with Bureau and Treasury
   Policy.
7. E-Authentication risk assessment was not performed at FinCEN.

Treasury should take additional steps to ensure that its information security risk management program and
practices fully comply with applicable NIST standards and guidelines, and FISMA requirements.




12
   The FISMA evaluation of the IRS is performed by TIGTA.
13
   TAF is an enterprise tool for aggregating data reported by Treasury bureaus to gauge how well the
Department is complying with key information security practices and controls.
14
   Only the Office of the Comptroller of Currency (OCC) was not using the Treasury training tool.

                                                                                                  Page 12
      Findings

      1. NIST FIPS 200 Minimum Security Control Baselines Not Sufficiently Tested or
         Implemented (Repeat Finding)
          Treasury has continued to make progress in addressing information security risk management
          requirements of FISMA and NIST, including the certification and accreditation of information
          systems and the implementation of minimum security controls outlined in NIST FIPS 200 and
          NIST SP 800-53 Rev. 2. The majority of bureaus evaluated have made progress in implementing
          the NIST SP 800-53 Rev. 2 minimum security control baseline within systems under their
          controls. In addition, the OCIO Cyber Security Program has built a program to oversee the
          certification and accreditation efforts of all Treasury bureaus. However, we noted that the
          minimum security controls required by NIST FIPS 200 were not tested or fully implemented for
          three systems within our representative subset of non-IRS Treasury information systems and one
          system previously identified during the FY 2008 FISMA Audit. Specifically, for the three (3)
          information systems reviewed and one system that was identified to have a deficiency in our FY
          2008 FISMA Audit report, we noted:

          •   Two (2) systems at FMS operating under a full authority to operate at the conclusion of the
              FY 2009 FISMA reporting period 15 were identified as having incomplete testing over the full
              NIST SP 800-53 Rev. 2 minimum security control baselines. In addition, a full risk
              assessment, per NIST SP 800-30, was not performed over either system as part of these
              efforts. Due to limited resource and time constraints, FMS made a risk-based decision to give
              priority to the assessment of the NIST SP 800-53 Rev. 2 technical security control families
              during the recertification of each system. FMS management decided to base the initial
              reaccreditation on the results of these technical testing activities alone due to the overarching
              need to keep these systems operational. The certification letters of both systems documented
              this scope limitation. FMS management then intended to continue with the full recertification
              and accreditation of each system, with the goal of reissuing a full authority to operate during
              the FY 2010 FISMA reporting cycle. FMS created a weakness in the POA&M for one (1)
              system to complete the testing of the NIST SP 800-53 Rev. 2 management and operational
              security control families by September 30, 2009; however, a POA&M weakness was not
              created for the second system. The complete Security Assessment Report for this second
              system, which included a risk assessment and testing of all management, operational, and
              technical controls in the NIST SP 800-53 Rev. 2 security baseline for a system with a FIPS
              199 system impact level of High, had not been finalized as of the conclusion of fieldwork.
              FMS was planning to reissue a full authority to operate for this system once the Security
              Assessment Report had been completed, as well as complete the full recertification of the first
              system by September 30, 2009.

              By not performing a risk assessment, FMS management may be unaware of the likelihood and
              impact of the threats and related vulnerabilities posed to FMS information and information
              systems. Subsequently, FMS may not have the appropriate controls in place to mitigate these
              threats and related vulnerabilities.

              By not fully testing the minimum security control baseline according to NIST FIPS 200 and
              NIST SP 800-53 Rev. 2, the confidentiality, integrity, and availability of sensitive information


15
     The FY 2009 FISMA reporting period is July 1, 2008 through June 30, 2009.

                                                                                                      Page 13
    systems that support the mission of the FMS under the control of both systems are susceptible
    to compromise.

•   (Repeat Finding) During FY 2008, OTS reorganized the FISMA system inventory into
    functional IT units. The authorities to operate for each system expired during the FY 2007
    FISMA reporting period. OTS did not re-perform the certification and accreditation of each
    system due to a planned process to redefine the FISMA system inventory, which occurred in
    the FY 2008 FISMA reporting period.

    Because of this reorganization and the subsequent certification and accreditation efforts, OTS
    management noted that the full NIST FIPS 200 and NIST SP 800-53 Rev. 2 minimum security
    control baseline had not been implemented for one system selected as part of the FY 2008
    FISMA audit representative subset of non-IRS Treasury systems. Specifically, the security test
    and evaluation of this system identified that several security controls outlined in the Moderate
    baseline were not in place and an Interim Authority to Operate (IATO) was issued on June 27,
    2008 for a period of 180 days. According to OTS management, the designated approving
    authority assessed the risks presented as part of the certification and accreditation process, then
    granted this system an IATO until December 31, 2008. During the FY 2009 FISMA
    Evaluation, many of these security weaknesses in this system remained open, causing OTS
    management to issue an extension to the IATO on June 25, 2009 to September 25, 2009.

    As part of the FY 2009 FISMA Evaluation, a second OTS system was selected for this FY
    2009 FISMA Evaluation. This second system inherits a number of security controls from the
    system selected as part of the FY 2008 FISMA Audit. Because of this, the second system also
    remained in an IATO status as of the end of the FY 2009 FISMA reporting period. This
    second system was also issued an extension of the IATO on June 25, 2009 to September 25,
    2009 by OTS management.

    At the conclusion of the FY 2009 FISMA reporting period, both systems identified above were
    not fully accredited. OTS is currently in the process of resolving the identified security
    weaknesses with the intent of obtaining a full authority to operate for both systems early in the
    FY 2010 FISMA reporting period. OTS management had developed a POA&M to track the IT
    security weaknesses identified during the certification and accreditation process. However,
    neither system was fully accredited at the conclusion of the FY 2009 FISMA reporting period.

    The confidentiality, integrity, and availability of sensitive or personally identifiable
    information contained within either OTS systems could be susceptible to compromise when a
    minimum security control baseline has not been fully implemented.

We recommend that FMS management:

1. Complete the full certification and accreditation of the first FMS system identified above by
   the estimated completion date being tracked in the POA&M.

2. Finalize the security assessment reporting process and reissue the full authority to operate for
   the second FMS system identified above.

We recommend that OTS management:



                                                                                              Page 14
   3. Continue with plans to resolve the one (1) remaining high-risk weakness identified during the
      certification and accreditation process and achieve a full authority to operate during the FY
      2010 FISMA reporting period.

2. Breach Notification Policy Required by OMB Memorandum 07-16 has not been not
   Finalized and Issued (Repeat Finding)

   OMB Memorandum 07-16, issued on May 22, 2007, required that a policy be developed for the
   PII breach notifications. OMB Memorandum 07-16 required that this policy be issued within 120
   days after the date of the memorandum, September 22, 2007. To date, TD 25-08 has not been
   finalized. According to the OPTR management, several major rewrites of TD 25-08 occurred
   while the document was in the clearance process, causing delays in implementation. At the
   conclusion of our FY 2009 FISMA Evaluation fieldwork, OPTR management stated that TD 25-
   08 has been re-written and is awaiting formal clearance process. The planned implementation date
   is December 31, 2009.

   Without formal policy related to the collection, use, sharing, disclosure, transfer, and storage of
   PII in place at the Treasury, information in identifiable form may not be adequately protected.

   The recommendation remains open from FY 2008.

3. DO FDCC Image Not Fully Implemented

   At the conclusion of the FY 2008 FISMA Audit, we noted that four (4) of the 12 non-IRS
   Treasury bureaus and offices, DO, the Financial Crimes Enforcement Network (FinCEN), the
   OIG, and OTS, had not fully implemented their FDCC baselines. As of the conclusion of the FY
   2009 FISMA Evaluation, we noted that only DO still had not implemented the FDCC secure
   configuration baseline on all workstations in accordance with Treasury Chief information Officer
   Memorandum 07-14, Implementation of Commonly Accepted Security Configurations for
   Windows Operating Systems, and OMB Memorandum 07-11, Implementation of Common
   Security Configurations for IT Systems Using Windows XP or Vista.

   DO IT management stated that DO is manually applying their FDCC image to all headquarters
   workstations to provide end users training on the new FDCC desktop configurations. As of the
   end of the FY 2009 FISMA reporting period, DO has implemented their FDCC image on about
   80% of headquarters workstations and expects to be completed by November 15, 2009. DO IT
   management is tracking the progress of this weakness via a POA&M weakness.

   By not applying the FDCC secure baseline configuration requirements for Microsoft® Windows®
   XP, DO information systems are under increased risk of exposure relative to the confidentiality,
   integrity, and availability of sensitive information and information systems controlled by these
   operating systems.

   We recommend that DO management:

    4. Fully implement the DO FDCC secure baseline configurations on all headquarters end-user
       workstations by the due date outlined in the POA&M.

4. BPD Not Using a Security Content Automation Protocol Validated Tool


                                                                                             Page 15
   As of the conclusion of the FY 2009 FISMA reporting period, BPD was not using a SCAP
   validated tool to scan the BPD FDCC secure configuration baseline in accordance with OMB
   Memorandum 08-22, which requires that agencies use SCAP tools to scan FDCC configurations
   and approved configuration deviations. BPD had been using a freeware version of a SCAP
   validated tool. However, BPD management was not satisfied with the quality of the results the
   tool provided and discontinued using it. BPD then began manually validating their FDCC image
   against the NIST FDCC secure configuration baseline. BPD has since purchased a license for a
   second SCAP validated tool; however, as of the close of the FY 2009 FISMA reporting period this
   tool was not implemented.

   By not using a SCAP tool to validate the implementation of the FDCC secure configuration
   baseline, BPD may be unable ensure continued compliance with FDCC.

   We recommend that BPD management:

    5. Continue with efforts to implement a SCAP-validated tool.

    6. Utilize a SCAP-validated tool to monitor the BPD FDCC secure configuration baseline
       image.

5. FMS POA&M Estimate to Completion Dates and Milestones Were Not Consistently
   Updated in Accordance with FMS Policy.

   Treasury has developed policies and procedures for the development and maintenance of
   POA&Ms. In addition, Treasury has implemented the TAF tool to serve as a central repository
   for POA&M weakness maintenance and tracking. Through this tool, the OCIO Cyber Security
   Program is also able to oversee the bureau-level management and tracking of the POA&M process
   and perform quality control reviews of the POA&M process. However, discrepancies in the
   management of the POA&M process were identified at FMS. Specifically, for three (3) of the five
   (5) FMS systems selected, estimate to complete dates were not consistently managed in
   accordance with FMS policy and TDP 85-01. Of the 15 weaknesses sampled out of a population
   of 222 across these three (3) FMS systems, 11 have estimate to complete dates that have passed
   with no actual completion date listed.

   According to FMS, the System Owner and Information System Security Officer of each of these
   systems inadvertently neglected to update the estimate to complete date or milestones after they
   had passed.

   By not consistently managing the estimate to complete dates and milestones being tracked on the
   POA&M, FMS’s ability to correct IT security weaknesses in a timely manner may be impaired.

   We recommend that FMS management:

    7. Update the estimate to complete dates and milestones for each of the identified weaknesses to
       reflect the status.

    8. Provide additional oversight across all FMS systems to ensure that the POA&M process is
       managed in accordance with FMS, Treasury, and OMB policy and guidance.


                                                                                            Page 16
6. Frequency of Vulnerability Assessment Scanning at BPD is not In Line with Bureau and
   Treasury Policy.

   The frequency of vulnerability scanning over one (1) system selected at BPD is not in compliance
   with Treasury-wide policy and the control requirements outlined in the system’s security plan.
   Currently, this system is scanned for vulnerabilities annually. The minimum required frequency
   of vulnerability scanning specified by Treasury policy and the control requirements outlined in the
   system’s security plan is at least quarterly, however BPD bureau-wide IT policy is semiannually.
   A recent vulnerability assessment performed by BPD on the infrastructure that supports this
   system identified potential high-risk vulnerabilities. At the time of the evaluation, BPD was
   performing follow-up efforts to evaluate raw scan results and determine if potential vulnerabilities
   were legitimate threats or false positives.

   BPD IT management has not been able to dedicate the resources necessary to conduct
   vulnerability scans on a more frequent basis. BPD IT management has identified this as an IT
   security weakness and is tracking it as a weakness in the POA&M of the BPD general support
   system with an estimated completion date of February 1, 2010.

   By not performing regular vulnerability scanning on major applications, BPD IT management
   may be unaware of all of the vulnerabilities present within the information system. A threat agent,
   either internal or external, could then compromise the vulnerabilities on these systems and affect
   the confidentiality, integrity, or availability of the information system and the information
   contained within.

   We recommend that BPD management:

    9. Continue follow-up efforts to resolve of all potential vulnerabilities identified during the
       recent vulnerability assessment.

    10. Review and update internal BPD bureau-wide IT policies as appropriate.

    11. Conduct vulnerability scans on at least a quarterly-basis as required by TDP 85-01.

7. E-Authentication Risk Assessment Was Not Performed at FinCEN

   Treasury has established a policy requiring the performance of an E-Authentication Risk
   Assessment for information systems with Web-based identification and authentication
   mechanisms. One (1) system within our representative subset of non-IRS Treasury systems at
   FinCEN was identified as having Web-based identification and authentication mechanisms;
   however, an E-Authentication Risk Assessment was not performed. An external accreditation
   agent informed FinCEN that this system did not require an E-Authentication Risk Assessment
   since it did not process financial transactions, even though the system has a web-based
   authentication mechanism. OMB Memorandum 04-04 requires that an E-Authentication Risk
   Assessment be performed on any information system performing remote authentication of human
   users of Federal agency IT systems for the purposes of conducting government business
   electronically. OMB Memorandum 04-04 does not limit E-Authentication Risk Assessments to
   systems processing financial transactions.

   By not performing an E-Authentication Risk Assessment, FinCEN may be unable to provide an
   appropriate level of assurance in the protection of authentication information.

                                                                                              Page 17
We recommend that FinCEN management:

12. Perform an E-Authentication Risk Assessment for the one (1) system selected at FinCEN for
    the FY 2009 FISMA Evaluation.




                                                                                      Page 18
Conclusions

As part of the FISMA evaluation of the non-IRS systems at Treasury, we assessed the effectiveness of
Treasury’s information security programs and practices and the implementation of the security control
catalog contained in NIST SP 800-53 Rev. 2. Overall, while continued improvements are still needed
across five (5) of 12 non-IRS bureaus and offices, we determined that an information security program is
in place and is generally consistent with FISMA.




                                                                                                Page 19
Management Response to Draft Report

The following is the OCIO’s response to the draft FY 2009 FISMA Evaluation report, dated November
2nd, 2009.




                                                                                         Page 20
                                        November 2, 2009


MEMORANDUM FOR MARLA A. FREEDMAN
                                       ASSISTANT INSPECTOR GENERAL FOR AUDIT
 
FROM:                  Michael D. Duffy /s/
                       Deputy Assistant Secretary for Information Systems
                       and Chief Information Officer                  
                    
                       Melissa Hartman /s/
                       Acting Deputy Assistant Secretary for Privacy and Treasury Records
   
SUBJECT:            Management Response to Draft Evaluation Report-The Department of the
                    Treasury Federal Information Security Management Act Fiscal Year 2009
                    Evaluation
 
Thank you for the opportunity to review and comment on the draft report entitled: “The
Department of the Treasury Federal Information Security Management Act Fiscal Year 2009
Evaluation." We are pleased that the evaluation identifies no significant deficiencies or
management challenges and acknowledges Treasury's continued efforts to advance its Federal
Information Security Management Act (FISMA) processes. The Department agrees with all
findings and recommendations.

We appreciate the Office of Inspector General’s recognition of our commitment to strengthen the
inventory reporting process and implement a uniform delivery of security awareness and privacy
awareness training. In an effort to continuously improve the Department's information
technology security program, the Office of the Chief Information Officer has implemented the
Trusted Agent FISMA (TAF) Certification and Accreditation module and continued efforts to
upgrade TAF, the FISMA reporting tool, which aids in the inventory reporting process.

The Office of the Deputy Assistant Secretary for Privacy and Treasury Records has strengthened
its privacy program by signing Treasury Directive Publication (TD P) 25-07, “Privacy Impact
Assessment Manual,” providing guidance to ensure appropriate measures are followed regarding
the proper use and protection of Personally Identifiable Information collected within Treasury’s
information systems.

We remain committed to sustaining an evolving IT security program, and providing appropriate
protection of critical information throughout the Department. Should you have any questions
pertaining to this response, please do not hesitate to contact Michael Duffy at 202-622-1200 or
Melissa Hartman at 202-622-5710.

Attachment
                                                    

 


                   MANAGEMENT RESPONSE TO TREASURY OIG DRAFT
                              RECOMMENDATIONS

OIG Finding 1: NIST Federal Information Processing Standard 200 Minimum Security Control
Baselines Were Not Sufficiently Tested or Implemented (Repeat Finding)

OIG Recommendation 1: For FMS, we recommend that management: Complete full certification and
accreditation of the first FMS system identified by the estimated completion date being tracked in the
POA&M.

Treasury Response: Treasury concurs with this recommendation.
FMS has completed a full Certification and Accreditation of System (C&A) 1 as identified in the
findings. This action was completed by September 29, 2009 and has met the POA&M target date of
September 30, 2009.

Responsible Official: Charles Simpson, FMS, Chief Information Officer 
 
 
 
OIG Recommendation 2: For FMS, we recommend that management: Finalize the security assessment
reporting process and reissue the full authority to operate for the second FMS system identified.
 
Treasury Response: Treasury concurs with this recommendation.
FMS has completed a full C&A of system 2 as identified in the finding. This action is complete as of
September 29, 2009 and met the POA&M target date of October 31, 2009.

Responsible Official: Charles Simpson, FMS, Chief Information Officer



OIG Recommendation 3: For OTS, we recommend that management: Continue with plans to resolve
the one (1) remaining high-risk weakness identified during the certification and accreditation process
and achieve a full authority to operate during the FY 2010 FISMA reporting period.

Treasury Response: Treasury concurs with this recommendation.
In the FY2010 FISMA reporting period, OTS will pursue their C&A plans to resolve security
weaknesses to achieve full Authority to Operate. Target completion date is December 31, 2009.

Responsible Official: Wayne Leiss, OTS, Chief Information Officer




                                                   1

 
                                                      

 

OIG Finding 2: Breach Notification Policy Required by OMB Memorandum 07-16 has not been
Finalized and Issued (Repeat Finding) 
The recommendation remains open from FY 2008.

Treasury Response: Treasury concurs.
Treasury Directive (TD) 25-08, “Safeguarding Against, and Responding to, the Breach of Personally
Identifiable Information (PII),” is in the final clearance stage and will be signed by December 31, 2009,
in accordance with the Planned Corrective Action. This Treasury-wide policy provides guidelines for
safeguarding privacy-related information as well as the process for responding to any breaches.

Responsible Official: Melissa Hartman, Acting Deputy Assistant Secretary for Office of Privacy and
Treasury Records



OIG Finding 3: DO FDCC Image Not Fully Implemented

OIG Recommendation 4: For DO, we recommend that management: Fully implement the DO FDCC
secure baseline configurations on all headquarters end-user workstations by the November 15, 2009 due
date outlined in the POA&M.

Treasury Response: Treasury concurs with this recommendation.
In the FY2010 FISMA reporting period, DO has implemented FDCC secure configuration baselines on
all headquarters end-user workstations. Target completion date is November 15, 2009.

Responsible Official: Diane Litman, Acting Associate CIO for Infrastructure Operations



OIG Finding 4: BPD Not Using a Security Content Automation Protocol Validated Tool

OIG Recommendation 5: For BPD, we recommend that management: Continue with efforts to
implement a SCAP-validated tool.

Treasury Response: Treasury concurs with this recommendation.
In August 2009, a SCAP-validated tool from Tenable Security System was procured and implemented.
A scan of the network was completed on September 25, 2009.

Responsible Official: Kim McCoy, BPD, Assistant Commissioner, Office of Information Technology
 
 
 


                                                    2

 
                                                      

 

OIG Recommendation 6: For BPD, we recommend that management: Utilize a SCAP-validated tool
to monitor the BPD FDCC secure configuration baseline image.
 
Treasury Response: Treasury concurs with this recommendation.
The FDCC secure baseline image will be monitored using the SCAP-validated tool on an ongoing basis
to ensure compliance with the FDCC secure configuration baseline. A scan of the network was
completed on September 25, 2009.

Responsible Official: Kim McCoy, BPD, Assistant Commissioner, Office of Information Technology
 
 
 
OIG Finding 5: FMS POA&M Estimate to Completion Dates and Milestones Were Not
Consistently Updated in Accordance with FMS Policy.

OIG Recommendation 7: For FMS, we recommend that management: Update the estimate to
complete dates and milestones for each of the identified weaknesses to reflect the status.

Treasury Response: Treasury concurs with this recommendation.
In the FY2010 FISMA reporting period, FMS will update the estimate to completion dates and
milestones for each identified weakness to reflect status. Target completion date is April 30, 2010.

Responsible Official: Charles Simpson, FMS, Chief Information Officer



OIG Recommendation 8: For FMS, we recommend that management: Provide additional oversight
across all FMS systems to ensure that the POA&M process is managed in accordance with FMS,
Treasury, and OMB policy and guidance.

Treasury Response: Treasury concurs with this recommendation.
FMS management will review its oversight and guidance process to ensure the FISMA process is
managed in accordance with all policies and guidance published by FMS, Treasury, and OMB policy
guidance. Based on this review, FMS will implement changes deemed necessary. Target completion
date is April 30, 2010.

Responsible Official: Charles Simpson, FMS, Chief Information Officer
 
 
 


                                                    3

 
                                                       

 

OIG Finding 6: Frequency of Vulnerability Assessment Scanning at BPD is Not In Line with
Bureau and Treasury Policy.

OIG Recommendation 9: For BPD, we recommend that management: Continue follow-up efforts to
resolve or dispose of all potential vulnerabilities identified during the recent vulnerability assessment.

Treasury Response: Treasury concurs with this recommendation.
In the FY2010 FISMA reporting period, BPD will continue follow-up efforts to resolve all potential
vulnerabilities identified during the assessment. This will be completed by March 31, 2010.

Responsible Official: Kim McCoy, BPD, Assistant Commissioner, Office of Information Technology




OIG Recommendation 10: For BPD, we recommend that management: Review and update internal
BPD bureau-wide IT policies as appropriate.

Treasury Response: Treasury concurs with this recommendation.
We are currently replacing our Information Technology Security Manual with a series of policy
documentation and will rely upon the Treasury policy to define the required scanning frequency for
systems. This will be completed by March 31, 2010.

Responsible Official: Kim McCoy, BPD, Assistant Commissioner, Office of Information Technology



OIG Recommendation 11: For BPD, we recommend that management: Conduct vulnerability scans
on at least a quarterly-basis as required by TDP 85-01.

Treasury Response: Treasury concurs with this recommendation.
In the FY2010 FISMA reporting period, BPD will conduct required vulnerability scans of the system
infrastructure in line with Treasury policy. This will be completed by March 31, 2010.

Responsible Official: Kim McCoy, BPD, Assistant Commissioner, Office of Information Technology




                                                     4

 
                                                  

 


OIG Finding 7: E-Authentication Risk Assessment Was Not Performed at FinCEN

OIG Recommendation 12: For FinCEN we recommend that management: Perform an E-
Authentication Risk Assessment for one (1) system selected at FinCEN for the FY2009 FISMA
Evaluation.

Treasury Response: Treasury concurs with this recommendation.
FinCEN has mitigated this finding. FinCEN has performed and documented an E-Authentication Risk
Assessment for a system that was selected for the FY2009 FISMA Evaluation, as well as documented E-
Authentication Risk Assessments for all other FISMA systems. E-Authentication Risk Assessment
updates were completed on August 10, 2009.

Responsible Official: Amy Taylor, FINCEN, Associate Director, Office of Information Technology
and Chief Information Officer




                                                 5

 
Appendix I –Responses to the FY 2009 OMB FISMA Reporting Questions

OMB’s FY 2009 FISMA Reporting Template for IGs includes the following questions, which are to be
addressed by the Treasury OIG and TIGTA: 16

•    Question 1 – Systems Inventory
•    Question 2 – Certification and Accreditation, Security Controls Testing, and Contingency Plan
     Testing
•    Question 3 – Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System
     Inventory
•    Question 4 – Evaluation of Agency POA&M Process
•    Question 5 – IG Assessment of the Certification and Accreditation Process
•    Question 6 – IG Assessment of the Privacy Program and PIA Process
•    Question 7 – Configuration Management
•    Question 8 – Incident Reporting
•    Question 9 – Security Awareness Training
•    Question 10 – Peer-to-Peer File Sharing

The responses to OMB’s questions have been divided into the two sections below. The first section,
entitled “Detailed Description of the Responses to the FY 2009 Reporting Template for IGs,” includes the
analysis and conclusions used to complete the reporting template for the non-IRS bureau of the Treasury.

The second section contains the FY 2009 Reporting Template for IGs. The Treasury’s responses to the
FY 2009 FISMA Reporting Instructions for the FISMA and Agency Privacy Management contained in
OMB Memorandum 08-21 represented the consolidation of the responses for the IRS developed by the
TIGTA and the responses for all 12 non-IRS bureaus and offices.

Detailed Description of the Responses to the FY 2009 Reporting Template for IGs 17

         System Inventory/Evaluation of Agency Oversight of Contractor Systems and Quality of
         Agency System Inventory (Questions 1 and 3)

         Treasury implemented the TAF during the FY 2007 FISMA reporting period as the centralized
         repository for all Treasury systems and FISMA-related artifacts. Since its implementation, TAF
         has helped improve the quality of the Treasury’s FISMA system inventory by serving as a
         centralized repository for common FISMA artifacts across the Department. The Treasury OCIO
         Cyber Security program has issued policy and guidance on TAF usage and provides training for
         all new users. No discrepancies were identified with respect to the completeness or quality of the
         FISMA systems inventory.

         For the system selected in our representative subset operated by a contractor, we noted that
         Treasury had implemented policies and oversight procedures for contractor systems. We
         identified that contracts contain terms and conditions that stipulated agency and contractor
         responsibilities related to FISMA. In addition, Memoranda of Understanding are in place to
         define responsibilities of both the agency and the contractor with respect to the information
         system security.

16
   The Treasury’s IGs include both the Treasury OIG and TIGTA.
17
   Individual non-IRS bureaus and offices have been notified of the detail observations identified during
fieldwork separately.

                                                                                                  Page I-1
Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
(Question 2)

Treasury has followed documented policies and procedures for certification and accreditation,
security controls testing, and contingency plan testing. However, one (1) Treasury system
selected at OTS within our representative subset of information systems is operating with an
Interim Authority to Operate (IATO). In addition, one (1) Treasury system at OTS identified in
the FY 2008 FISMA Audit report was still operating with an IATO at the conclusion of the FY
2009 FISMA Evaluation. Per NIST SP 800-37, an IATO does not represent a full system
accreditation, nor is an IATO recognized as a system accreditation by OMB. Lastly, two (2)
Treasury systems selected at FMS within our representative subset of information systems did
not have a risk assessment or complete testing of the full NIST SP 800-53 Rev. 2 security
controls baseline prior to granting a full authority to operate. With the exception of the systems
within this Treasury bureau’s FISMA systems inventory, Treasury has tested the security
controls and contingency plans for all systems within our representative subset of systems during
the FY 2009 FISMA reporting period. Refer to Finding No. 1 in the Results section of this
report on page 12.

Evaluation of Agency POA&M Process (Question 4)

Refer to Finding No. 5 in the Results section of this report on page 15.

IG Assessment of the Certification and Accreditation (C&A) Process (Question 5)

Refer to Finding No. 1 in the Results section of this report on page 12.

IG Assessment of the Privacy Program and PIA Process (Question 6)

The Treasury Office of Privacy and Treasury records has created TD 25-07, which outlines policy
and assigned responsibility for implementing the privacy provisions of the E-Government Act of
2002. TD 25-07 also authorized TD P 25-07, Privacy Impact Assessment Manual. TD P 25-07
serves as a standard set of policies and procedures for the performance of PIAs for Treasury
information systems. TD P 25-07 has been consistently applied across all 12 non-IRS Treasury
bureaus and offices. Specifically, out of the 18 non-IRS systems in our representative subset of
Treasury systems that contain PII, each had a PIA consistent with the requirements of TD P 25-
07. However, Treasury OPTR has yet to implement policies required by OMB Memorandum
07-16. Refer to Finding No. 3 in the Results section of this report on page 15.

Configuration Management (Question 7)

Refer to Findings No. 2 and No. 6 in the Results section of this report on page 14 and 16
respectively.

Incident Reporting (Question 8)

Treasury has established Treasury-wide computer security incident response and reporting policy
and procedures in TD P 85-01. Treasury has also established the TCSIRC to serve as the
organization for coordinating computer security incident response and reporting amongst all 14
bureaus and offices of the Treasury and to serve as a single point of contact for reporting
computer security incidents to US-CERT and external law enforcement. Each of the 12 non-IRS

                                                                                         Page I-2
bureaus and offices in scope has also developed a computer security incident reporting capability
and had reported all computer security incidents internally and in a timely manner.

Security Awareness Training (Question 9)

Treasury has implemented policy in TD P 85-01 that requires each bureau CIO to ensure IT
security awareness training is provided annually to IT users (i.e., full time employees,
contractors, and any other individuals with system access) in accordance with applicable
guidance. In addition, new hires and new contractors are required to attend security awareness
training prior to being granted access to information systems. Lastly, all employees and
contractors are required to attend security awareness refresher training on an annual basis.

Treasury has continued to make improvements to its security awareness training program since
the FY 2008 FISMA Audit. Out of a sample of 170 employees and contractors across Treasury,
only one (1) did not attend IT security awareness training within the FY 2009 FISMA reporting
period. We noted that this deviation represented only a minimal rate of control failure, based on
the total sample size of 170 employees and contractors across all 12 non-IRS bureaus and offices,
and did not represent a control weakness.

Peer-to-Peer File Sharing (Question 10)

Treasury has established a Treasury-wide policy in TD P 85-01 for the inclusion of peer-to-peer
file sharing in IT security awareness training programs. TD P 85-01 requires bureaus to approve
the use of all software, while use of pirated software is prohibited. In addition, bureaus must
approve all software use. The TD P 85-01 also references the OMB Memorandum M-04-26,
Personal Use Policies and “File-Sharing” Technology for additional guidance pertaining to use
of peer-to-peer technology. In addition, all non-IRS bureaus and offices have incorporated peer-
to-peer file sharing within their IT security awareness training programs, including the Treasury-
wide training solution.




                                                                                         Page I-3
OMB FY 2009 Reporting Template for IGs

 Question 1: Systems Inventory – Identify the number of agency and contractors systems by component and FIPS 199 impact level (low, moderate, high).
 Please also identify the number of systems that are used by your agency but owned by another federal agency (i.e., ePayroll, etc.) by component and FIPS
 199 impact level.

 Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing – Identify the number of agency and contractors
 systems by component and FIPS 199 impact level (low, moderate, high). Please also identify the number of systems that are used by your agency but owned
 by another federal agency (i.e., ePayroll, etc.) by component and FIPS 199 impact level.

                                                               Question 1                                                            Question 2 18
                                            a.                     b.                     c.                        a.                    b.                   c.
                                      Agency Systems       Contractor Systems      Total number of          Number of systems    Number of systems     Number of systems
                                                                                       systems                certified and       for which security       for which
                                                                                     (Agency and               accredited         controls have been   contingency plans
                                                                                  Contractor systems)                            tested and reviewed   have been tested in
                                                                                                                                   in the past year     accordance with
                                                                                                                                                             policy


                                                                                              Total
                 FIPS 199 System              Number                 Number        Total                     Total    Percent     Total     Percent     Total     Percent
 Bureau Name                        Number                 Number                            Number
                 Impact Level                 Reviewed               Reviewed     Number                    Number    of Total   Number     of Total   Number     of Total
                                                                                             Reviewed

 BEP             High                     0            0         0           0           0              0         0         0           0        0           0            0
                 Moderate                32            1         2           0          34              1         1      100%           1     100%           1         100%
                 Low                      8            0         0           0           8              0         0         0           0        0           0            0
                 Not Categorized          0            0         0           0           0              0         0         0           0        0           0            0
                 Subtotal                40            1         2           0          42              1         1      100%           1     100%           1         100%
 BPD             High                     2            0         0           0           2              0         0         0           0        0           0            0
                 Moderate                11            2         0           0          11              2         2      100%           2     100%           2         100%
                 Low                      6            0         0           0           6              0         0         0           0        0           0            0
                 Not Categorized          0            0         0           0           0              0         0         0           0        0           0            0
                 Subtotal                19            2         0           0          19              2         2      100%           2     100%           2         100%


18
  This template is based on the FISMA Reporting Instructions developed by OMB. These reporting instructions allow the agency to report on a representative subset of
agency systems. The Totals and Percent Totals in Question 2 are calculated using the total number of systems in our representative subset of Treasury systems as the
denominator, as identified in “Total Number Reviewed” column of Question 1 c. “Total number of systems (Agency and Contractor systems).


                                                                                                                                                            Page I-3
                                                           Question 1                                                          Question 2 18
                                       a.                      b.                   c.                        a.                    b.                   c.
                                 Agency Systems        Contractor Systems    Total number of          Number of systems    Number of systems     Number of systems
                                                                                 systems                certified and       for which security       for which
                                                                               (Agency and               accredited         controls have been   contingency plans
                                                                            Contractor systems)                            tested and reviewed   have been tested in
                                                                                                                             in the past year     accordance with
                                                                                                                                                       policy


                                                                                        Total
              FIPS 199 System            Number                  Number      Total                     Total    Percent     Total     Percent     Total     Percent
Bureau Name                     Number                 Number                          Number
              Impact Level               Reviewed                Reviewed   Number                    Number    of Total   Number     of Total   Number     of Total
                                                                                       Reviewed
CDFI          High                   0             0         0          0          0              0         0         0           0        0           0            0
              Moderate               3             1         0          0          3              1         1      100%           1     100%           1         100%
              Low                    0             0         0          0          0              0         0         0           0        0           0            0
              Not Categorized        0             0         0          0          0              0         0         0           0        0           0            0
              Subtotal               3             1         0          0         3               1         1      100%           1     100%           1         100%
DO            High                  10             0         2          1        12               1         1      100%           1     100%           1         100%
              Moderate              22             2         3          1        25               3         3      100%           3     100%           3         100%
              Low                   13             0         2          0        15               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal              45             2         7          2        52               4         4      100%           4     100%           4         100%
FinCEN        High                   5             1         0          0         5               1         1      100%           1     100%           1         100%
              Moderate               2             0         0          0         2               0         0         0           0        0           0            0
              Low                    1             0         0          0         1               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal               8             1         0          0         8               1         1      100%           1     100%           1         100%
FMS           High                   8             2         3          1        11               3         3      100%           3     100%           3         100%
              Moderate              29             2         2          0        31               2         2      100%           2     100%           2         100%
              Low                    9             0         0          0         9               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal              46             4         5          1        51            5            5      100%          5      100%           5         100%
IRS           High                   4             0         0          0         4            0            0         0          0         0           0            0
              Moderate             181            11         6          1       187           12           12      100%         12      100%          12         100%
              Low                   44             0         0          0        44            0            0         0          0         0           0            0
              Not Categorized        0             0         0          0         0            0            0         0          0         0           0            0



                                                                                                                                                      Page I-4
                                                           Question 1                                                          Question 2 18
                                       a.                      b.                   c.                        a.                    b.                   c.
                                 Agency Systems        Contractor Systems    Total number of          Number of systems    Number of systems     Number of systems
                                                                                 systems                certified and       for which security       for which
                                                                               (Agency and               accredited         controls have been   contingency plans
                                                                            Contractor systems)                            tested and reviewed   have been tested in
                                                                                                                             in the past year     accordance with
                                                                                                                                                       policy


                                                                                        Total
              FIPS 199 System            Number                  Number      Total                     Total    Percent     Total     Percent     Total     Percent
Bureau Name                     Number                 Number                          Number
              Impact Level               Reviewed                Reviewed   Number                    Number    of Total   Number     of Total   Number     of Total
                                                                                       Reviewed
              Subtotal             229            11         6          1       235           12           12      100%         12      100%          12         100%
Mint          High                   0             0         0          0         0               0         0         0           0        0           0            0
              Moderate              15             0         1          1        16               1         1      100%           1     100%           1         100%
              Low                    3             0         0          0         3               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal              18             0         1          1        19               1         1      100%           1     100%           1         100%
OCC           High                   0             0         0          0         0               0         0         0           0        0           0            0
              Moderate              17             1         0          0        17               1         1      100%           1     100%           1         100%
              Low                    0             0         0          0         0               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal              17             1         0          0        17               1         1      100%           1     100%           1         100%
OIG           High                   0             0         0          0         0               0         0         0           0        0           0            0
              Moderate               1             0         0          0         1               0         0         0           0        0           0            0
              Low                    0             0         0          0         0               0         0         0           0        0           0            0
              Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
              Subtotal               1             0         0          0          1              0         0         0           0        0           0            0
OTS           High                   0             0         0          0          0              0         0         0           0        0           0            0
              Moderate               8             1         0          0          8              1         0        0%           1     100%           1         100%
              Low                    0             0         0          0          0              0         0         0           0        0           0            0
              Not Categorized        0             0         0          0          0              0         0         0           0        0           0            0
              Subtotal               8             1         0          0          8              1         0        0%           1     100%           1         100%
TIGTA         High                   0             0         0          0          0              0         0         0           0        0           0            0
              Moderate               2             0         0          0          2              0         0         0           0        0           0            0
              Low                    0             0         0          0          0              0         0         0           0        0           0            0



                                                                                                                                                      Page I-5
                                                             Question 1                                                          Question 2 18
                                         a.                      b.                   c.                        a.                    b.                   c.
                                   Agency Systems        Contractor Systems    Total number of          Number of systems    Number of systems     Number of systems
                                                                                   systems                certified and       for which security       for which
                                                                                 (Agency and               accredited         controls have been   contingency plans
                                                                              Contractor systems)                            tested and reviewed   have been tested in
                                                                                                                               in the past year     accordance with
                                                                                                                                                         policy


                                                                                          Total
                FIPS 199 System            Number                  Number      Total                     Total    Percent     Total     Percent     Total     Percent
Bureau Name                       Number                 Number                          Number
                Impact Level               Reviewed                Reviewed   Number                    Number    of Total   Number     of Total   Number     of Total
                                                                                         Reviewed
                Not Categorized        0             0         0          0          0              0         0         0           0        0           0            0
                Subtotal               2             0         0          0         2               0         0         0           0        0           0            0
TTB             High                   0             0         0          0         0               0         0         0           0        0           0            0
                Moderate              17             1         0          0        17               1         1      100%           1     100%           1         100%
                Low                    1             0         0          0         1               0         0         0           0        0           0            0
                Not Categorized        0             0         0          0         0               0         0         0           0        0           0            0
                Subtotal              18             1        0           0        18            1            1     100%           1      100%           1       100%
Agency Totals   High                  29             3        5           2        34            5            5     100%           5      100%           5       100%
                Moderate             340            22       14           3       354           25           24      96%          25      100%          25       100%
                Low                   85             0        2           0        87            0            0       0%           0        0%           0         0%
                Not Categorized        0             0        0           0         0            0            0       0%           0        0%           0         0%
                Total                454            25       21           5       475           30           29      97%          30      100%          30       100%




                                                                                                                                                        Page I-6
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory – The agency performs oversight and
evaluation to ensure information systems used or operated by a contractor of the agency or other organization on behalf of the agency meet the
requirements of FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

Does the agency have policies for oversight of contractors? Yes/No                                                                   Yes

If the answer above is Yes, Is the policy implemented?                                                                               Yes

                                                                                                                           (See Comment 1 Below)
The agency has a materially correct inventory of major information systems (including                                              Yes
national security systems) operated by or under the control of such agency. Yes/No
                                                                                                      (Note: National Security Systems are reported in a separate report)
Does the agency maintain an inventory of interfaces between the agency systems and all other                                        Yes
systems, such as those not operated by or under the control of the agency? Yes/No

Does the agency require agreements for interfaces between systems it owns or operates and                                            Yes
other systems not operated by or under the control of the agency? Yes/No

The IG generally agrees with the CIO on the number of agency-owned systems. Yes/No                                                   Yes

The agency inventory is maintained and updated at least annually. Yes/No                                                             Yes

The IG generally agrees with the CIO on the number of information systems used or operated                                           Yes
by a contractor of the agency or other organization on behalf of the agency. Yes/No

If the IG does not indicate that the agency has a materially correct inventory, please identify any known missing major systems by Component/Bureau, the
Unique Project Identifier (UPI) associated with the systems as presented in the FY 2009 Exhibit 300 (if known), and indicate if the system is an agency or
contractor system.


                                                                                    Exhibit 300 Unique Project
         Component/Bureau                           System Name                                                                 Agency or Contractor system?
                                                                                         Identifier (UPI)
Not applicable – the Treasury OIG and TIGTA agreed that Treasury has a materially correct inventory

Number of known systems missing
                                         0
from inventory:




                                                                                                                                                            Page I-7
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory – The agency performs oversight and
evaluation to ensure information systems used or operated by a contractor of the agency or other organization on behalf of the agency meet the
requirements of FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

                                         Comment 1 – TIGTA Comment: The response to this question is based on our evaluation of the annual testing of
                                         1 contractor system in the sample of 12 systems reviewed. The Treasury Inspector General for Tax Administration (TIGTA) is
Comments:
                                         currently conducting an audit of the effectiveness of contractor managed systems, the results of which will be reflected in future
                                         FISMA evaluation results.


Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process – Assess whether the agency has developed, implemented, and is
managing an agency-wide plan of action and milestones (POA&M) process, providing explanatory detail in the area provided.

Has the Agency developed and documented an adequate policy that establishes a POA&M
process for reporting IT security deficiencies and tracking the status of remediation efforts?
                                                                                                                                       Yes
Yes/No

Has the Agency fully implemented the policy? Yes/No
                                                                                                                                       Yes

Is the Agency currently managing and operating a POA&M process?                                                                    Yes
                                                                                                                 (See Overall Comment - Treasury OIG Below)
Is the agency's POA&M process an agency-wide process, incorporating all known IT security
weakness, including IG/external audit findings associated with information systems used or
operated by the agency or by a contractor of the agency or other organization on behalf of the                                         Yes
agency? Yes/No

Does the POA&M process prioritize IT security weakness to help ensure significant IT
security weaknesses are corrected in a timely manner and receive appropriate resources?
                                                                                                                                       Yes
Yes/No

When an IT security weakness is identified, do program officials (including CIOs, if they own
or operate a system) develop, implement, and manage POA&Ms for their system(s)? Yes/No                                                 Yes


For Systems Reviewed:                            a. Are deficiencies tracked and remediated in
                                                                                                                                       Yes
                                                 a timely manner? Yes/No



                                                                                                                                                              Page I-8
Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process – Assess whether the agency has developed, implemented, and is
managing an agency-wide plan of action and milestones (POA&M) process, providing explanatory detail in the area provided.


                                               b. Are the remediation plans effective for
                                               correcting the security weakness? Yes/No                                     Yes

                                               c. Are the estimated dates for remediation
                                               reasonable and adhered to? Yes/No                                            Yes

Do Program officials and contractors report their progress on security weakness remediation
to the CIO on a regular basis (at least quarterly)? Yes/No                                                                  Yes

Does the Agency CIO centrally track, maintain, and independently review/validate POA&M
activities on at least a quarterly basis? Yes/No                                                                            Yes

                    Overall Comment - Treasury OIG: While there were no findings reported in the POA&M process at 11 of the 12 non-IRS bureau of the Treasury,
POA&M process       it was noted that FMS did not consistently update POA&M weakness estimated completion dates for a subset of the POA&M weaknesses sampled.
  comments:         While this discrepancy was identified and reported to management, overall all 12 non-IRS bureaus and offices have generally developed,
                    implemented, and are managing a POA&M process. (See Finding Number 5 on page 15 in the body of this report)




                                                                                                                                                 Page I-9
Question 5: IG Assessment of the Certification and Accreditation Process – Provide a qualitative assessment of the agency's certification and
accreditation process, including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, Guide for
the Security Certification and Accreditation of Federal Information Systems (May 2004) for certification and accreditation work initiated after May 2004.
This includes use of the FIPS 199 (February 2004), Standards for Security Categorization of Federal Information and Information Systems, to determine a
system impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans. Provide explanatory detail
in the area provided.

Has the Agency developed and documented an adequate policy for establishing a certification and accreditation process that follows the
NIST framework? Yes/No                                                                                                                                       Yes

                                                                                                                                                            Yes
Is the Agency currently managing and operating a C&A process in compliance with its policies? Yes/No
                                                                                                                                                      (See Comment 2
                                                                                                                                                          Below)
                                                                                                                 Appropriate risk categories
                                                                                                                                                             Yes
                                                                                                                 Adequate risk assessments
                                                                                                                                                             Yes
                                                                                                                 Selection of appropriate
                                                                                                                 controls                                    Yes
For systems reviewed, does the C&A process adequately provide:(Yes/No)
                                                                                                                                                            No
                                                                                                                 Adequate testing of controls
                                                                                                                                                      (See Comment 3
                                                                                                                                                          Below)
                                                                                                                 Regular monitoring of
                                                                                                                 system risks and the
                                                                                                                                                             Yes
                                                                                                                 adequacy of controls

For systems reviewed, is the Authorizing Official presented with complete and reliable C&A information to facilitate an informed
                                                                                                                                                             Yes
system Authorization to Operate decision based on risks and controls implemented? Yes/No

                     Comment 2 - Treasury OIG: We identified that Treasury has generally managed and operated a certification and accreditation process in
                     compliance with its policies. However, deviations were identified at FMS and OTS. Specifically, NIST FIPS 199 security control baselines were
                     not adequately tested for two (2) systems at FMS and not fully implemented over two (2) systems at OTS. (See Finding Number 1 on page 12 in
  C&A process        the body of this report)
   comments:
                     Comment 3 - TIGTA: Controls were not adequately tested for 3 of the 12 sampled systems reviewed. For each of the three systems, controls were
                     selected and tested during 2009 for continuous monitoring of security. However, tests of the operational and technical controls for the three systems
                     were not sufficient to determine if the controls were in place and operating as intended. Specifically, 11 (31 percent) of 35 operational controls and



                                                                                                                                                            Page I-10
Question 5: IG Assessment of the Certification and Accreditation Process – Provide a qualitative assessment of the agency's certification and
accreditation process, including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, Guide for
the Security Certification and Accreditation of Federal Information Systems (May 2004) for certification and accreditation work initiated after May 2004.
This includes use of the FIPS 199 (February 2004), Standards for Security Categorization of Federal Information and Information Systems, to determine a
system impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans. Provide explanatory detail
in the area provided.

                    15 (27 percent) of 56 technical controls selected for the 3 systems, collectively, were not adequately tested. The tests were limited to examining
                    certification and accreditation documentation or conducting interviews without examining system evidence. For example, configuration change
                    control is an operational control that ensures changes to the information system are authorized, documented, and controlled. For one of the systems,
                    the IRS evaluated this control by examining the test results from the system’s last certification and accreditation in 2007. For another system, the
                    IRS evaluated the control by referring to a description of the control in the system’s System Security Plan. In both examples, the IRS did not
                    actually test the control.




Questions 6 : IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process – Provide a qualitative assessment of the
agency's process, as discussed in Section D, for protecting privacy-related information, including adherence to existing policy, guidance and standards.
Provide explanatory information in the area provided.

Has the Agency developed and documented adequate policies that comply with OMB guidance in M-07-16, M-06-15, and M-06-16 for                              No
safeguarding privacy-related information? Yes/No
                                                                                                                                                   (See Comment 3
                                                                                                                                                       Below)
Is the Agency currently managing and operating a privacy program with appropriate controls in compliance with its policies? Yes/No                       No

                                                                                                                                                   (See Comment 3
                                                                                                                                                       Below)
Has the Agency developed and documented an adequate policy for Privacy Impact Assessments? Yes/No/NA
                                                                                                                                                         Yes
Has the Agency fully implemented the policy and is the Agency currently managing and operating a process for performing adequate
privacy impact assessments? Yes/No/NA                                                                                                                    Yes




                                                                                                                                                          Page I-11
Questions 6 : IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process – Provide a qualitative assessment of the
agency's process, as discussed in Section D, for protecting privacy-related information, including adherence to existing policy, guidance and standards.
Provide explanatory information in the area provided.

                     Comment 3 – Treasury OIG: While the TIGTA has reported “Yes” to these questions with respect to the IRS, the Treasury Office of Privacy and
                     Treasury Records have yet to finalize Treasury-wide policy for safeguarding privacy-related information, as required by OMB Memorandum 07-
Comments:            016. (See Finding Number 4 on page 15 in the body of this report)



Question 7: Configuration Management
Is there an agency-wide security configuration policy? Yes or No.                                                                                  Yes

For each OS/platform/system for which your Agency has a configuration policy, please indicate the status of implementation for that          See Comment 4
policy?                                                                                                                                          Below


Agency has documented deviations from FDCC standard configuration. Yes/No                                                                          Yes

                                                                                                                                                    No
New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—Acquisition of Information Technology", is included
in all contracts related to common security settings. Yes/No.                                                                                (See Comment 5
                                                                                                                                                 Below)
Comments:            Comment 4 - Treasury OIG: The following table includes the consolidated Treasury OIG and TIGTA results for all 14 Treasury bureaus and
                     offices:

                      OS/Platform/System           Implementation Status       Monitoring Compliance (if Policy fully implemented)
                                                                               Tool/Technique/Technology                     Category
                      Microsoft Windows NT 4.0     Policy Fully Implemented    Windows Policy Checker                        Configuration Scanner
                      Microsoft Windows 2000       Policy Fully Implemented    Windows Policy Checker                        Configuration Scanner
                      Professional
                      Microsoft Windows Server     Policy Fully Implemented    McAfee Foundstone                                Vulnerability Scanner
                      2000                                                     Tenable Security Nessus                          Vulnerability Scanner
                                                                               Microsoft Baseline Security Analyzer             Configuration Scanner
                                                                               Qualysis                                         Vulnerability Scanner
                                                                               System Center Configuration Manager/System       Other – Patch Management
                                                                               Management Service



                                                                                                                                                   Page I-12
Question 7: Configuration Management
                                                                        Windows Policy Checker                       Configuration Scanner
                  Microsoft Windows Server   Policy Fully Implemented   McAfee Foundstone                            Vulnerability Scanner
                  2003                                                  Tenable Security Nessus                      Vulnerability Scanner
                                                                        Microsoft Baseline Security Analyzer         Configuration Scanner
                                                                        Qualysis                                     Vulnerability Scanner
                                                                        System Center Configuration Manager/System   Other – Patch Management
                                                                        Management Service
                                                                        Windows Policy Checker                       Configuration Scanner
                  Microsoft Windows XP       Policy Fully Implemented   ThreatGuard Secutor Prime                    Configuration Scanner
                                                                        ThreatGuard Secutor Magnus                   Configuration Scanner
                                                                        Tenable Security Nessus                      Configuration Scanner
                                                                        Secure Fusion                                Configuration Scanner
                                                                        GFI LANguard                                 Vulnerability Scanner
                                                                        System Center Configuration Manager/System   Other – Patch Management
                                                                        Management Service
                                                                        Windows Policy Checker                       Configuration Scanner
                                                                        Security Compliance Checker                  Configuration Scanner
                  Sun Solaris                Policy Fully Implemented   McAfee Foundstone                            Vulnerability Scanner
                                                                        Tenable Security Nessus                      Vulnerability Scanner
                                                                        Qualysis                                     Vulnerability Scanner
                                                                        Unix Policy Checker                          Configuration Scanner
                  IBM AIX                    Policy Fully Implemented   McAfee Foundstone                            Vulnerability Scanner
                                                                        Tenable Security Nessus                      Vulnerability Scanner
                                                                        Qualysis                                     Vulnerability Scanner
                                                                        Checklist                                    Other
                  HP-UX                      Policy Fully Implemented   McAfee Foundstone                            Vulnerability Scanner
                                                                        Tenable Security Nessus                      Vulnerability Scanner
                                                                        Qualysis                                     Vulnerability Scanner
                                                                        Unix Policy Checker                          Configuration Scanner
                  Red Hat Linux              Policy Fully Implemented   McAfee Foundstone                            Vulnerability Scanner
                                                                        Tenable Security Nessus                      Vulnerability Scanner
                                                                        Qualysis                                     Vulnerability Scanner
                                                                        Checklist                                    Other
                  IBM OS390                  Policy Fully Implemented   Mainframe Policy Checker                        Configuration Scanner
                  Microsoft SQL Server       Policy Fully Implemented   AppDetective                                 Configuration Scanner



                                                                                                                                        Page I-13
          Question 7: Configuration Management
                                 2000                                                       Checklist                                          Other
                                 Microsoft SQL Server         Policy Fully Implemented      Checklist                                          Other
                                 2005
                                 IBM DB2                      Policy Fully Implemented      AppDetective                                  Configuration Scanner
                                                                                            Checklist                                     Other
                                Oracle Database 8i             Policy Fully Implemented     AppDetective                                  Configuration Scanner
                                                                                            Checklist                                     Other
                                Oracle Database 9i             Policy Fully Implemented     Checklist                                     Other
                                Oracle Database 10g            Policy Fully Implemented     Checklist                                     Other
                                Cisco IOS                      Policy Fully Implemented     OPNETDoctor                                   Configuration Scanner
                                Other                          Policy Fully Implemented     Other – Enterasys Dragon                      Intrusion Detection and
                                                                                                                                          Prevention Systems
                                                                                             Other - Snort                                Intrusion Detection and
                                                                                                                                          Prevention Systems
                                                                                             Other – IBM zOS Manual Technique             Configuration Scanner
                               Note: While this table contains the combined results of the Treasury OIG and TIGTA FISMA evaluations, we have also maintained the separate
                               TIGTA specific comment below.

                                Comment 4 - TIGTA: The IRS uses the following tools and techniques for monitoring compliance with configuration policy:
                                •  Windows Policy Checker for Windows XP, Windows NT, Windows 2000 Professional, Windows 2000 Server, and Windows 2003 Server
                                •  Security Compliance Checker for Windows XP
                                •  UNIX Policy Checker for UNIX, Solaris, and HP-UX
                                •  Mainframe Policy Checker for Mainframes
                                •  OPNET Doctor for Cisco Router and Switches
                                •  Checklists for Linux, Oracle, SQL, DB2, and AIX

                               Comment 5 – Treasury OIG/TIGTA: While the Treasury OIG reported “Yes” for this question for the 12 non-IRS Treasury bureaus, TIGTA
                               reported “No”. Specifically, in March 2009, TIGTA issued a report 19 in which they identified that 27 of 30 contracts for new software products
                               that reviewed did not include the required FDCC contract language. The IRS has not yet implemented policy that would require the inclusion of
                               the FDCC language in contracts for new software products. The IRS responded to the report that it planned to issue an agency-wide policy that
                               will incorporate the FDCC contract language in information technology acquisitions.




Been Slow in Implementing Federal Security Configurations on Employee Computers (Reference Number 2009-20-055, dated March 27, 2009).


                                                                                                                                                                   Page I-14
 Question 8: Incident Reporting
                                                                                                                                                         90-100%
 How often does the Agency comply documented policies and procedures for identifying and reporting incidents internally? Answer will
 be a percentage range
                                                                                                                                                     (See Comment 6
                                                                                                                                                         Below)
                                                                                                                                                        90-100%
 How often does the Agency comply with documented policies and procedures for timely reporting of incidents to US CERT? Answer
 will be a percentage range
                                                                                                                                                     (See Comment 7
                                                                                                                                                         Below)
                                                                                                                                                        90-100%
 How often does the Agency comply documented policy and procedures for reporting to law enforcements? Answer will be a percentage
 range
                                                                                                                                                (See Comment 8
                                                                                                                                                     Below)
 Comments:            General Comment - Treasury OIG: No significant discrepancies in incident reporting were identified at the 12 non-IRS bureau of the Treasury.

                      Comment 6 – TIGTA: This percentage rate is based on an August 2009 TIGTA audit report 20 which showed that IRS employees reported 96
                      percent of all incidents involving the loss of information technology assets to the IRS Computer Security Incident Response Center, whose mission
                      is to be proactive in preventing, detecting, and responding to computer security incidents targeting IRS enterprise information technology assets..

                      Comment 7 – TIGTA: Not applicable. The IRS does not report incidents directly to US-CERT. The IRS reports incidents to the Department of
                      the Treasury. The Department of the Treasury serves as the central point for reporting Treasury bureau incidents to the US-CERT.

                      Comment 8 – TIGTA: 90 percent– 100 percent. This percentage rate is based on an August 2009 TIGTA audit report that showed that the IRS
                      reported 96 percent of all incidents involving the loss of information technology assets to the TIGTA Office of Investigations, the law enforcement
                      agency for the IRS.




 Question 9: Security Awareness Training – Has the agency ensured IT security awareness training of all users with log in privileges, including
 contractors and those employees with significant IT security responsibilities? Provide explanatory detail in the space provided.

 Has the Agency developed and documented an adequate policy for identifying all general users,                                            Yes
 contractors, and system owners/employees who have log in privileges, and providing them with

20
  Significant Improvements Have Been Made to Protect Sensitive Data on Laptop Computers and Other Portable Electronic Media Devices (Reference Number 2009-
20-120, dated August 31, 2009).


                                                                                                                                                            Page I-15
Question 9: Security Awareness Training – Has the agency ensured IT security awareness training of all users with log in privileges, including
contractors and those employees with significant IT security responsibilities? Provide explanatory detail in the space provided.

suitable IT security awareness training? Yes/No/NA                                                                            (See Comment 9 Below)

Total number of people with log in privileges to agency systems
                                                                                                                                     104, 231
Number of people with log in privileges to agency systems that received information security
                                                                                                                                      124,773
awareness training during the past fiscal year, as described in NIST Special Publication 800-50,
"Building an Information Technology Security Awareness and Training Program" (October 2003).
                                                                                                                             (See Comment 10 Below)
Total number of employees with significant information security responsibilities.
                                                                                                                                       7,778
Number of employees with significant security responsibilities that received specialized training, as
described in NIST Special Publication 800-16, “Information Technology Security Training
                                                                                                                                       7,633
Requirements: A Role- and Performance-Based Model” (April 1998)

                      General Comment - Treasury OIG: Our conclusions in Question 9 are based on totals provided by the Treasury OCIO and verified by test
                      work over a samples of employees and contractors at each of the 12 non-IRS bureaus and offices of the Treasury to determine if individuals with
                      log in privileges to agency systems received information security awareness training during the past fiscal year and to determine if employees
                      with significant security responsibilities received specialized training.
    Comments:
                      Comment 9 – TIGTA: The IRS identifies all employees and contractors including those with log in privileges as well as those without system
                      access.

                      Comment 10 - TIGTA: 107,568 people received information security awareness training. This included individuals with log in privileges as
                      well as those without system access.



Question 10: Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of peer-to-peer file sharing in IT security awareness
                                                                                                                                        Yes
training, ethics training, or any other agency-wide training? Yes/No.




                                                                                                                                                          Page I-16
Appendix II – Approach to the Selection of the Subset of Systems

In FY 2009, we employed a risk-based approach to determine the representative subset of Treasury
information systems for the FISMA evaluation. The universe for this representative subset will only
include major applications and general support systems.

We used a total subset size of 15% of the total population of Treasury major applications and general
support systems. We then applied the weighting of IRS systems to non-IRS bureau systems to the total
subset size in order to determine the IRS and non-IRS bureau subset sizes. We determined that, as of
April 2, 2009, 60% of the population of Treasury information systems are non-IRS major applications and
general support systems. We also determined that 40% of the population of Treasury information system
were IRS major applications and general support systems. Based on our analysis, we noted 203 major
applications and general support systems are contained within the Treasury-wide inventory. The
following table provides our analysis of the composition of the Treasury’s inventory of major applications
and general support systems.

                              Total      IRS       non-IRS      non-IRS Financial Systems
Major Applications             148        59         89                    43
General Support Systems         55        23          32                    4
Total                          203        82         121                   47

Applying the subset size percentage of 15% to the total population of 203 yields a total subset size of 30
systems. When the IRS to non-IRS weighting is applied to this total subset size, the resulting sizes for the
IRS and non-IRS subsets are 12 and 18, respectively.

We determined that Major Applications account for 74% of the population of the non-IRS population and
General Support Systems account for 26%. We further determined that systems designated as “Financial”
in TAF account for 39% of all non-IRS Major Applications and General Support Systems. Lastly, we
determined that 26% of the non-IRS Major Applications and General Support Systems are assigned a
FIPS 199 System Impact Level of “High,” while 66% are assigned a FIPS 199 System Impact Level of
“Moderate” and 7% are assigned a FIPS 199 System Impact Level of “Low.” (Note: Based on their lower
risk, we elected not to select any systems with a FIPS 199 System Impact Level of “Low.” Rather, we
substituted these systems for a system with a FIPS 199 System Impact Level of “Moderate.”)

To select the subset, we stratified the full population of Treasury major applications and general support
systems by bureau and by FIPS 199 system impact level.

     Total Selected                                                                    18
     Total Major Applications                                                          14
     Total General Support Systems                                                      4
     Total Systems with a FIPS 199 System Impact Level of “High”                        5
     Total Systems with a FIPS 199 System Impact Level of “Moderate”                   13
     Total Systems with a FIPS 199 System Impact Level of “Low”                         0
     Total Systems Designated as Financial                                              7

We further stratified the number of information system by each bureau to determine the total percentage
of information systems at each non-IRS bureau, based on the total population of all non-IRS information
system. This information was used as a baseline when determining the total number of systems to select
at each bureau:


                                                                                                  Page II-1
            Bureau         Total Systems       Percentage of       Total Number of
                                               Total non-IRS       non-IRS Systems
                                                Population          to be Selected
         BEP                            8                   7%                      1
         BPD                           13                  11%                      2
         CDFI Fund                      3                   2%                      1
         DO                            27                  22%                      4
         FinCEN                         5                   4%                      1
         FMS                           33                  27%                      5
         Mint                          10                   8%                      2
         OCC                            8                   8%                      1
         OIG                            1                   1%                      0
         OTS                            8                   7%                      1
         TIGTA                          2                   1%                      0
         TTB                            3                   2%                      1
         Total                        121                 100%                     18

We then used a risk-based approach to selecting systems out of each stratum. We considered the
following factors to select each system:

•   Total number of systems per bureau
•   Systems at smaller bureaus not historically included in FISMA audits or evaluations
•   Number of systems at each bureau with a FIPS system impact level of “High”
•   Date of the system’s Authority to Operate
•   Number of open issues per system
•   Number of issues recently closed per system
•   Number of issues identified in previous FISMA audits, FISMA evaluations, and other recent OIG
    reviews
•   Availability of the system via the Internet.

From our representative subset of 18 non-IRS Treasury systems, we also selected five (5) to perform in-
depth testing over specific controls selected from the NIST SP 800-53 Rev. 2 minimum security control
baseline. We selected five (5) major applications with a NIST FIPS 199 system impact level of Moderate.
We selected one system each from the five (5) non-IRS Treasury bureaus with the highest concentration
of systems or had prior year findings in the implementation of the NIST SP 800-53 Rev. 2 minimum
security control baseline.




                                                                                              Page II-2
Appendix III – Acronym Listing
Acronym   Definition                                         Acronym   Definition
          Associate Chief Information Officer for Cyber      OCC       Office of the Comptroller of Currency
ACIOCS
          Security
BEP       Bureau of Engraving and Printing                   OCIO      Office of the Chief Information Officer
BPD       Bureau of the Public Debt                          OMB       Office of Management and Budget
CDFI      Community Development Financial Institution        OPTR      Office of Privacy and Treasury Records
CIO       Chief Information Officer                          OIG       Office of the Inspector General
CIP       Critical Infrastructure Protection                 OTS       Office of Thrift Supervision
CPO       Chief Privacy Officer                              PIA       Privacy Impact Assessment
CSS       Cyber Security Sub-Council                         PII       Personally Identifiable Information
DO        Departmental Offices                               POA&M     Plan of Action and Milestones
FDCC      Federal Desktop Core Configuration                 Rev       Revision
FinCEN    Financial Crimes Enforcement Network               SAOP      Senior Agency Official for Privacy
FIPS      Federal Information Processing Standards           SCAP      Security Content Automation Protocol
FISMA     Federal Information Security Management Act        SIGTARP   Special Inspector General for the Troubled Asset
                                                                       Relief Program
FMS       Financial Management Service                       SP        Special Publication
FY        Fiscal Year                                        TAF       Trusted Agent FISMA
GAGAS     Generally Accepted Government Auditing Standards   TCSIRC    Treasury Computer Security Incident Response
                                                                       Capability
IATO      Interim Authority to Operate                       TD        Treasury Directive
IG        Inspector General                                  TD P      Treasury Directive Publication
IRS       Internal Revenue Service                           TIGTA     Treasury Inspector General for Tax Administration
IT        Information Technology                             TTB       Alcohol and Tobacco Tax and Trade Bureau
Mint      United States Mint                                 US-CERT   United States Computer Emergency Readiness
                                                                       Team
NIST      National Institute of Standards and Technology




                                                                                                        Page III-1
            ATTACHMENT 2

    Treasury Inspector General for Tax
 Administration–Federal Information Security
Management Act Report for Fiscal Year 2009,
              October 27, 2009
                                         D E P A R T M E N T O F T H E T R E AS U R Y
                                                 WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                                     October 27, 2009


       MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                      OFFICE OF THE TREASURY INSPECTOR GENERAL

       FROM:                         Michael R. Phillips
                                     Deputy Inspector General for Audit

       SUBJECT:                      Treasury Inspector General for Tax Administration –
                                     Federal Information Security Management Act Report for
                                     Fiscal Year 2009 (Audit # 200920010)

       We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
       Information Security Management Act (FISMA) 1 report for Fiscal Year 2009. The FISMA
       requires the Office of Inspector General to perform an annual independent evaluation of
       information security policies, procedures, and practices, as well as evaluate compliance with
       FISMA requirements. This report reflects our independent evaluation of the Internal Revenue
       Service’s (IRS) information technology security program for the period under review.
       We based our evaluation on the Office of Management and Budget (OMB) FISMA 2009
       Reporting Guidelines. During the 2009 evaluation period, 2 we conducted eight audits, as shown
       in Attachment I, to evaluate the adequacy of information security in the IRS. We considered the
       results of these audits in our evaluation. In addition, we evaluated a representative sample of
       12 major IRS information systems for our FISMA work. For each system in the sample, we
       assessed the quality of the certification and accreditation process, the annual testing of controls
       for continuous monitoring, testing of information technology contingency plans, and the quality
       of the Plan of Action and Milestones process. We also conducted tests to evaluate processes
       over inventory accuracy, configuration management, incident reporting, security awareness and
       specialized security training, and the information privacy program.
       Included in Attachment II are our responses to the OMB Fiscal Year 2009 FISMA questions for
       the Inspector General. We are confident that the IRS has:
            •   Established a materially correct inventory.
            •   Implemented a certification and accreditation process that follows the National Institute
                for Standards and Technology (NIST) framework.

       1
        44 U.S.C. §§ 3541 - 3549.
       2
        The FISMA evaluation period for the Department of the Treasury is July 1, 2008, through June 30, 2009. All
       subsequent references to 2009 refer to the FISMA evaluation period.
                                                      2

    •   Sufficiently tested its information technology contingency plans.
    •   Implemented an adequate Plan of Action and Milestones process to ensure that security
        weaknesses are remediated.
    •   Followed policies and procedures for reporting computer security incidents.
    •   Provided employees security awareness and specialized security training.
    •   Implemented adequate policies to protect privacy-related information.
Since the enactment of the FISMA in Calendar Year 2002, overall, the IRS has made steady
progress in complying with FISMA requirements. In addition, the IRS continues to place a high
priority on efforts to improve its security program. We observed significant improvements in
information technology contingency plan testing and additional improvements in annual security
controls testing, two security areas we identified as needing improvement in our 2008 FISMA
evaluation. 3 However, based on our 2009 evaluation, we believe the IRS still needs to take
additional actions in the areas of certification and accreditation, and configuration management
to better secure its systems and data.
Certification and Accreditation Process The OMB guidelines for minimum security controls
in Federal Government information systems require that all systems be certified and accredited
every 3 years, or when major system changes occur. The NIST provides guidelines for
conducting the system certifications and accreditations. Five of the 12 systems in our sample
were certified and accredited in 2009. We evaluated the quality of the certification and
accreditation process for these five systems and determined that all of them were properly
certified and accredited in accordance with NIST guidelines.
The OMB also requires that system security controls be tested for every system at least annually.
In years when a system will not be certified and accredited, a subset of security controls must be
tested. The NIST provides guidelines for annual testing of security controls. We reviewed the
adequacy of annual testing of security controls for 7 of the 12 systems in our sample that were
not certified and accredited in 2009. We found that an appropriate subset of management,
operational, and technical controls was selected, documented, and approved for each of the seven
systems. However, tests of the operational and technical controls for three of the seven systems
were not sufficient to determine if the controls were in place and operating as intended.
Specifically, 11 (31 percent) of 35 operational controls and 15 (27 percent) of 56 technical
controls selected for the 3 systems, collectively, were not adequately tested. The tests were
limited to examining certification and accreditation documentation or conducting interviews
without examining system evidence. For example, configuration change control is an
operational control that ensures changes to the information system are authorized, documented,
and controlled. For one of the systems, the IRS evaluated this control by examining the test
results from the system’s last certification and accreditation in 2007. For another system, the
IRS evaluated the control by referring to a description of the control in the system’s System


3
 Treasury Inspector General for Tax Administration – Federal Information Security Management Act Report for
Fiscal Year 2008 (Reference Number 2008-20-173, dated September 10, 2008).
                                                     3

Security Plan. In both examples, the IRS did not actually test the control. As a result, these tests
were insufficient to determine whether the security controls were operating as intended.
Configuration Management The OMB required Federal Government agencies that use the
Windows XP or VISTA operating systems to adopt a standard set of configuration settings by
February 1, 2008. These configuration settings are referred to as the Federal Desktop Core
Configuration (FDCC). The IRS has made significant progress in implementing FDCC standard
settings. As of the end of the 2009 evaluation period, the IRS had implemented or had
deviations approved by the Department of the Treasury for 265 (94 percent) of 282 FDCC
settings. The IRS continues to test the remaining FDCC configurations and has a plan in place to
reach full implementation by February 2010. The IRS has not, however, modified its software
contracts to ensure purchased software will operate properly with the FDCC settings. In
March 2009, we issued a report 4 in which we identified that 27 of 30 software contracts that we
examined did not include the required FDCC contract language. The IRS has not yet developed
a policy that would require the inclusion of the FDCC language in contracts for new software
products. The IRS responded to the report that it planned to issue an agency-wide policy that
will incorporate the FDCC contract language in information technology acquisitions.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-8510.


Attachments




4
 Progress Has Been Slow in Implementing Federal Security Configurations on Employee Computers (Reference
Number 2009-20-055, dated March 27, 2009).
                                                                         Attachment I

Treasury Inspector General for Tax Administration
 Information Technology Security Reports Issued
        During the 2009 Evaluation Period

1. The Office of Research, Analysis, and Statistics Needs to Address Computer Security
   Weaknesses (Reference Number 2008-20-176, dated September 17, 2008).
2. Weaknesses in Business Resumption Plans Could Delay Recovery From a Disaster
   (Reference Number 2008-20-178, dated September 17, 2008).
3. The Internal Revenue Service Deployed Two of Its Most Important Modernized Systems
   With Known Security Vulnerabilities (Reference Number 2008-20-163, dated
   September 24, 2008).
4. The Internal Revenue Service Deployed the Modernized e-File System With Known
   Security Vulnerabilities (Reference Number 2009-20-026, dated December 30, 2008).
5. Better Emergency Preparedness Planning Could Improve Business Continuity Efforts
   (Reference Number 2009-20-038, dated February 13, 2009).
6. While Controls Have Been Implemented to Address Malware, Continued Attention Is
   Needed to Address This Growing Threat (Reference Number 2009-20-045, dated
   March 10, 2009).
7. Progress Has Been Slow in Implementing Federal Security Configurations on Employee
   Computers (Reference Number 2009-20-055, dated March 27, 2009).
8. The Homeland Security Presidential Directive 12 Program Office Has Addressed Prior
   Weaknesses, but Progress Is Slower Than What Has Been Reported (Reference
   Number 2009-20-084, dated June 25, 2009).




                                                                                   Page 1
                                                                                                  Attachment II

   Treasury Inspector General for Tax Administration
   Responses to the 2009 Office of Management and
   Budget Federal Information Security Management
           Act Inspector General Questions

Question 1: System Inventory 
Identify the number of agency and contractor systems by component and Federal Information 
Processing Standard (FIPS) 199 impact level (low, moderate, high).  Please also identify the number of 
systems that are used by your agency but owned by another Federal agency (i.e., ePayroll, etc.) by 
component and FIPS 199 impact level. 
 
 Internal Revenue                                                                                  
 Service (IRS) 
  FIPS 199 System        Agency       Contractor          Total Systems              Systems Owned by 
    Impact Level         Systems       Systems       (Agency and Contractor  Another Federal Agency 
                                                              Systems) 
  High                         4             0                     4                         * 
  Moderate                  181              6                   187                         * 
  Low                         44             0                    44                         * 
               Total        229              6                   235                         * 
   * This information will be provided by the Department of the Treasury for all agency components. 

Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing 
For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the 
table for Question 1, identify the number and percentage of systems which have: a current certification 
and accreditation, security controls tested and reviewed within the past year, and a contingency plan 
tested in accordance with policy. 
 
 FIPS 199        Systems      Number of                  Systems with                 Systems with         
  System        Reviewed    systems with      % of     security controls    % of       contingency      % of 
  Impact                       a current      Total       tested and        Total    plans tested in    Total 
   Level                     certification             reviewed within                 accordance          
                                  and                    the past year                  with policy 
                            accreditation 
 High               0                                                                                    
 Moderate          12             12          100%             12           100%            12              100%
 Low                0                                                                          
       Total       12             12          100%             12           100%            12              100%

                                                                                                                   Page 1
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System 
Inventory  
The agency performs oversight and evaluation to ensure information systems used or operated by a 
contractor of the agency or other organization on behalf of the agency meet the requirements of FISMA, 
OMB policy and NIST guidelines, national security policy, and agency policy. 
Does the agency have policies for oversight of contractors? Yes/No 
       Yes. 
If the answer above is yes, is the policy implemented? 
         Yes.  The response to this question is based on our evaluation of the annual testing of  
         1 contractor system in the sample of 12 systems reviewed.  The Treasury Inspector General for 
         Tax Administration (TIGTA) is currently conducting an audit of the effectiveness of contractor 
         managed systems, the results of which will be reflected in future FISMA evaluation results. 
The agency has a materially correct inventory of major information systems (including national security 
systems) operated by or under the control of such agency. Yes/No 
       Yes. 
Does the agency maintain an inventory of interfaces between the agency systems and all other systems, 
such as those not operated by or under the control of the agency? Yes/No 
        Yes. 
Does the agency require agreements for interfaces between systems it owns or operates and other 
systems not operated by or under the control of the agency? Yes/No 
       Yes. 
The IG generally agrees with the CIO on the number of agency‐owned systems. Yes/No 
        Yes. 
The IG generally agrees with the CIO on the number of information systems used or operated by a 
contractor of the agency or other organization on behalf of the agency. Yes/No 
        Yes. 
The agency inventory is maintained and updated at least annually. Yes/No 
       Yes. 
If the IG does not indicate that the agency has a materially correct inventory, please identify any known 
missing major systems by Component/Bureau, the Unique Project Identifier (UPI) associated with the 
systems as presented in the FY 2009 Exhibit 300 (if known), and indicate if the system is an agency or 
contractor system. 
         Not applicable as the TIGTA agrees that the IRS has a materially correct inventory. 

Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process  
Assess whether the agency has developed, implemented, and is managing an agency‐wide plan of action 
and milestones (POA&M) process, providing explanatory detail in the area provided. 
Has the agency developed and documented an adequate policy that establishes a POA&M process for 
reporting IT security deficiencies and tracking the status of remediation efforts? Yes/No 
        Yes. 
                                                                                                  Page 2
Has the agency fully implemented the policy? Yes/No 
        Yes. 
Is the agency currently managing and operating a POA&M process? 
         Yes. 
Is the agency’s POA&M process an agency‐wide process, incorporating all known IT security weaknesses, 
including IG/external audit findings associated with information systems used or operated by the agency 
or by a contractor of the agency or other organization on behalf of the agency? Yes/No 
         Yes. 
Does the POA&M process prioritize IT security weaknesses to help ensure significant IT security 
weaknesses are corrected in a timely manner and receive appropriate resources? Yes/No 
       Yes. 
When an IT security weakness is identified, do program officials (including CIOs, if they own or operate a 
system) develop, implement, and manage POA&Ms for their system(s)? Yes/No 
       Yes. 
For Systems Reviewed: 
a. Are deficiencies tracked and remediated in a timely manner? Yes/No 
        Yes. 
b. Are the remediation plans effective for correcting the security weakness? Yes/No 
         Yes. 
c. Are the estimated dates for remediation reasonable and adhered to? Yes/No 
         Yes. 
Do Program officials and contractors report their progress on security weakness remediation to the CIO 
on a regular basis (at least quarterly)? Yes/No 
        Yes. 
Does the Agency CIO centrally track, maintain, and independently review/validate POA&M activities on 
at least a quarterly basis? Yes/No 
         Yes. 

Question 5: IG Assessment of the Certification and Accreditation Process 
Provide a qualitative assessment of the agency’s certification and accreditation process, including 
adherence to existing policy, guidance, and standards.  Agencies shall follow NIST Special  
Publication 800‐37, Guide for the Security Certification and Accreditation of Federal Information 
Systems (May 2004) for certification and accreditation work initiated after May 2004.  This includes use 
of the FIPS 199 (February 2004), Standards for Security Categorization of Federal Information and 
Information Systems, to determine a system impact level, as well as associated NIST documents used as 
guidance for completing risk assessments and security plans.  Provide explanatory detail in the area 
provided. 
         Five of the 12 systems reviewed were certified and accredited during the past year.  Security 
         controls were selected and tested for the remaining seven systems as part of the continuous 
         monitoring of security controls. 

                                                                                                   Page 3
Has the agency developed and documented an adequate policy for establishing a certification and 
accreditation process that follows the NIST framework? Yes/No 
        Yes. 
Is the agency currently managing and operating a C&A process in compliance with its policies? Yes/No 
         Yes. 
For systems reviewed, does the C&A process adequately provide: (check all that apply) 
        9  Appropriate risk categories 
        9  Adequate risk assessments 
        9  Selection of appropriate controls 
         X   Adequate testing of controls 
        9  Regular monitoring of system risks and the adequacy of controls 
       Controls were not adequately tested for 3 of the 12 sampled systems reviewed.  For each of the 
       three systems, controls were selected and tested during 2009 for continuous monitoring of 
       security.  However, tests of the operational and technical controls for the three systems were 
       not sufficient to determine if the controls were in place and operating as intended.  Specifically,  
       11 (31 percent) of 35 operational controls and 15 (27 percent) of 56 technical controls selected 
       for the 3 systems, collectively, were not adequately tested.  The tests were limited to examining 
       certification and accreditation documentation or conducting interviews without examining 
       system evidence.  For example, configuration change control is an operational control that 
       ensures changes to the information system are authorized, documented, and controlled.  For 
       one of the systems, the IRS evaluated this control by examining the test results from the 
       system’s last certification and accreditation in 2007.  For another system, the IRS evaluated the 
       control by referring to a description of the control in the system’s System Security Plan.  In both 
       examples, the IRS did not actually test the control. 
For systems reviewed, is the Authorizing Official presented with complete and reliable C&A information 
to facilitate an informed system Authorization to Operate decision based on risks and controls 
implemented? Yes/No 
          Yes. 

Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process  
Provide a qualitative assessment of the agency’s process, as discussed in Section D, for protecting 
privacy‐related information, including adherence to existing policy, guidance, and standards. Provide 
explanatory information in the area provided. 
Has the Agency developed and documented adequate policies that comply with OMB guidance in  
M‐07‐16, M‐06‐15, and M‐06‐16 for safeguarding privacy‐related information? Yes/No 
        Yes. 
Is the Agency currently managing and operating a privacy program with appropriate controls in 
compliance with its policies? Yes/No 
         Yes. 


                                                                                                   Page 4
Has the Agency developed and documented an adequate policy for Privacy Impact Assessments? 
Yes/No/Not Applicable 
        Yes. 
Has the Agency fully implemented the policy and is the Agency currently managing and operating a 
process for performing adequate privacy impact assessments? Yes/No/Not Applicable 
        Yes. 

Question 7: Configuration Management 
Is there an agency‐wide security configuration policy? Yes/No 
         Yes. 
What tools, techniques is your agency using for monitoring compliance? 
       The IRS uses the following tools and techniques for monitoring compliance with configuration 
       policy: 
            • Windows Policy Checker for Windows XP, Windows NT, Windows 2000 Professional, 
                Windows 2000 Server, and Windows 2003 Server. 
            • Security Compliance Checker for Windows XP. 
            • Unix Policy Checker for Unix, Solaris, and HP‐UX. 
            • Mainframe Policy Checker for Mainframes. 
            • OPNET Doctor for Cisco Router and Switches.
            • Checklists for Linux, Oracle, SQL, DB2, and AIX.
Indicate the status of the implementation of FDCC at your agency:  
Agency has documented deviations from FDCC standard configuration. Yes/No 
        Yes. 
New Federal Acquisition Regulation 2007‐004 language, which modified “Part 39—Acquisition of 
Information Technology,” is included in all contracts related to common security settings. Yes/No 
       No.  In March 2009, we issued a report 1  in which we identified that 27 of 30 contracts for new 
       software products that we reviewed did not include the required FDCC contract language.  The 
       IRS has not yet implemented policy that would require the inclusion of the FDCC language in 
       contracts for new software products.  The IRS responded to the report that it planned to issue 
       an agency‐wide policy that will incorporate the FDCC contract language in information 
       technology acquisitions. 

Question 8: Incident Reporting 
How often does the agency comply with documented policies and procedures for identifying and 
reporting incidents internally?  Answer will be a percentage range. 
        90 percent– 100 percent.  This percentage rate is based on an August 2009 TIGTA audit report 2  
        which showed that IRS employees reported 96 percent of all incidents involving the loss of 


1
  Progress Has Been Slow in Implementing Federal Security Configurations on Employee Computers (Reference
Number 2009-20-055, dated March 27, 2009).
2
  Significant Improvements Have Been Made to Protect Sensitive Data on Laptop Computers and Other Portable
Electronic Media Devices (Reference Number 2009-20-120, dated August 31, 2009).
                                                                                                    Page 5
        information technology assets to the IRS Computer Security Incident Response Center, whose 
        mission is to be proactive in preventing, detecting, and responding to computer security 
        incidents targeting IRS enterprise information technology assets. 
How often does the agency comply with documented policies and procedures for timely reporting of 
incidents to US CERT? Answer will be a percentage range. 
        Not applicable.  The IRS does not report incidents directly to US‐CERT.  The IRS reports incidents 
        to the Department of the Treasury.  The Department of the Treasury serves as the central point 
        for reporting Treasury bureau incidents to the US‐CERT. 
How often does the agency comply with documented policy and procedures for reporting to law 
enforcement? Answer will be a percentage range. 
       90 percent– 100 percent.  This percentage rate is based on an August 2009 TIGTA audit report3  
       that showed that the IRS reported 96 percent of all incidents involving the loss of information 
       technology assets to the TIGTA Office of Investigations, the law enforcement agency for the IRS. 

Question 9: Security Awareness Training 
Has the agency ensured IT security awareness training of all users with log in privileges, including 
contractors and those employees with significant IT security responsibilities?  Provide explanatory detail 
in the space provided. 
Has the agency developed and documented an adequate policy for identifying all general users, 
contractors, and system owners/employees who have log in privileges, and providing them with suitable 
IT security awareness training? Yes/No/Not Applicable 
         Yes.  The IRS identifies all employees and contractors including those with log in privileges as 
         well as those without system access. 
Report the following for your agency:  
Total number of people with log in privileges to agency systems. 
        86,535. 
Number of people with log in privileges to agency systems that received information security awareness 
training during the past fiscal year, as described in NIST Special Publication 800‐50, “Building an 
Information Technology Security Awareness and Training Program” (October 2003). 
         107,568 people received information security awareness training.  This included individuals with 
         log in privileges as well as those without system access. 
Total number of employees with significant information security responsibilities. 
        5,919. 
Number of employees with significant security responsibilities that received specialized training, as 
described in NIST Special Publication 800‐16, “Information Technology Security Training Requirements: 
A Role‐ and Performance‐Based Model” (April 1998). 
        5,913. 



3
 Significant Improvements Have Been Made to Protect Sensitive Data on Laptop Computers and Other Portable
Electronic Media Devices (Reference Number 2009-20-120, dated August 31, 2009).
                                                                                                   Page 6
Question 10: Peer‐to‐Peer File Sharing 
Does the agency explain policies regarding the use of peer‐to‐peer file sharing in IT security awareness 
training, ethics training, or any other agency‐wide training? Yes/No 
         Yes. 




                                                                                                  Page 7
